                                 January 9, 2007




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S TECHNICAL TRAINING CENTER
                           (OIG-07-A-05)


This report presents the results of the subject audit. The formal comments
provided by your office on November 22, 2006, are presented in their entirety as
Appendices C and D to this report. Appendix D also contains OIG’s response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow-up, as stated in Management Directive 6.1.

If you have any questions, please call me at 415-5915 or Steven Zane at
415-5912.

Attachment: As stated


cc:   M. Johnson, OEDO
      M. Malloy, OEDO
      P. Tressler, OEDO
ELECTRONIC DISTRIBUTION

John T. Larkins, Executive Director, Advisory Committee on Reactor
  Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
   and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


                  Audit of NRC’s Technical Training Center

                       OIG-07-A-05      January 9, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                Audit of NRC’s Technical Training Center



EXECUTIVE SUMMARY

   BACKGROUND

         Following its establishment as an independent agency in 1974,
         NRC provided technical training at its Headquarters in Bethesda,
         Maryland. After the 1979 accident at the Three Mile Island nuclear
         power plant, various investigative bodies recommended that NRC
         improve technical training for its staff. Consequently, in 1980, NRC
         moved its technical training to Chattanooga, Tennessee, a location
         near the Tennessee Valley Authority (TVA).

         Organizationally, the Technical Training Center (TTC) reports to the
         Associate Director for Training and Development in the Office of
         Human Resources (HR). TTC is divided into three groups: The
         Reactor Technology Training group, the Specialized Technical
         Training group, and the Technical Support Team.

   PURPOSE

         The objective of this audit was to identify opportunities to improve
         the economy, efficiency, and effectiveness of the Technical
         Training Center’s operations.

   RESULTS IN BRIEF

         Collectively, TTC instructors are knowledgeable, experienced and
         enthusiastic. While Office Directors and former TTC students were
         generally pleased with the training provided by TTC, OIG identified
         opportunities for improvement in the following areas:

                •   Inventory practices,
                •   Policies and procedures,
                •   Maintenance of training materials,
                •   Scheduling course revisions,
                •   Instructor training and rotation, and
                •   Course evaluations.

   RECOMMENDATIONS

         This report makes eleven recommendations to the Executive
         Director for Operations (EDO) to improve the efficiency and
         effectiveness of TTC’s training program and better prepare NRC for
         the significant challenge that lies ahead.




                                     i
                                          Audit of NRC’s Technical Training Center



OIG ANALYSIS OF AGENCY COMMENTS

     At a September 28, 2006, exit conference with agency senior
     executives, NRC officials generally agreed with most of the report’s
     findings and recommendations. Subsequent to that meeting, NRC
     provided informal comments on the draft report. The EDO provided
     a formal response to this report on November 22, 2006.
     Appendix C contains the EDO’s transmittal letter.

     The agency’s formal comments along with OIG’s analysis and
     response to those comments are included as Appendix D. This
     final report incorporates revisions made, where appropriate, in
     response to the agency’s comments.




                               ii
                                                           Audit of NRC’s Technical Training Center



ABBREVIATIONS AND ACRONYMS

                NRC             U.S. Nuclear Regulatory Commission
                OIG             Office of the Inspector General
                FTE             Full Time Equivalent
                GAO             Government Accountability Office1
                HR              Office of Human Resources
                MD              Management Directive
                TVA             Tennessee Valley Authority
                TTC             Technical Training Center




1
  Effective July 7, 2004, GAO legally changed their name from the General Accounting Office to
the Government Accountability Office, while keeping the same acronym.


                                               iii
                          Audit of NRC’s Technical Training Center




[Page intentionally left blank.]




               iv
                                                                   Audit of NRC’s Technical Training Center



TABLE OF CONTENTS

    EXECUTIVE SUMMARY........................................................................... i
    ABBREVIATIONS AND ACRONYMS ..................................................... iii
    I. BACKGROUND ...................................................................................1
    II. PURPOSE...........................................................................................4
    III. FINDING ............................................................................................5
             A.        Inventory Practices .............................................................5
             B.        Policies and Procedures .....................................................7
             C.        Maintenance of Training Materials......................................9
             D.        Scheduling Course Revisions ...........................................11
             E.        Instructor Training and Rotation........................................13
             F.        Course Evaluations...........................................................16
    IV. CONSOLIDATED LIST OF RECOMMENDATIONS ........................18
    V. SURVEY OF FORMER STUDENTS ................................................19
    VI. BEST PRACTICES ..........................................................................21


    APPENDICES
             A.      SCOPE AND METHODOLOGY ..........................................22

             B.      ANTICIPATED TRAINING...................................................23

             C.      MEMORANDUM TRANSMITTING AGENCY
                     RESPONSE ........................................................................25

             D.      FORMAL AGENCY COMMENTS AND
                     DETAILED OIG ANALYSIS OF AGENCY
                     COMMENTS .......................................................................27




                                                    v
                          Audit of NRC’s Technical Training Center




[Page intentionally left blank.]




               vi
                                                           Audit of NRC’s Technical Training Center



I.   BACKGROUND

     Formation and Location

            Following its establishment as an independent agency in 1974, NRC
            provided technical training at its Headquarters in Bethesda, Maryland. After
            the 1979 accident at the Three Mile Island nuclear power plant, various
            investigative bodies recommended that NRC improve technical training for
                                                its staff. Consequently, in 1980, NRC
                                                moved its technical training to
                                                Chattanooga, Tennessee, a location near
                                                the Tennessee Valley Authority (TVA).
                                                Initially, NRC contracted with TVA for the
                                                use of its control room simulators.
                                                Subsequently, NRC purchased four
                                                simulators of its own for use in providing
                                                training in each of the four nuclear reactor
                                                vendor designs.
                TTC - Chattanooga, TN



     Organizational Structure

            Organizationally, the Technical Training Center (TTC) reports to the
            Associate Director for Training and Development in the Office of Human
            Resources (HR). TTC is divided into three groups: The Reactor
            Technology Training group, the Specialized Technical Training group, and
            the Technical Support Team.

            Reactor Technology Training Group

            The Reactor Technology Training group provides a spectrum of classroom
            and full scope simulator courses to meet the cumulative reactor technology
            and regulatory skills training needs of the NRC staff. The Reactor
            Technology Training group designs, develops, maintains, and implements a
            reactor technology curriculum in each of the General Electric,
            Westinghouse, Combustion Engineering, and Babcock and Wilcox reactor
            vendor designs. The Reactor Technology Training group also provides
            training to develop and maintain agency skills related to:

                   •   Performance-based regulatory safety assessment of control room
                       configuration,
                   •   Integrated plant operation,
                   •   Application of emergency operating procedures, and
                   •   Severe accident guidelines.


                                            1
                                                                      Audit of NRC’s Technical Training Center



                TTC instructors2 teach these courses.

                Specialized Technical Training Group

                The Specialized Technical Training group provides specialized non-reactor
                technical training. This group also supports Agreement State staff training.
                The training includes:

                        •   Probabilistic risk assessment,
                        •   Engineering support,
                        •   Radiation protection,
                        •   Fuel cycle technology,
                        •   Security and safeguards, and
                        •   Regulatory skills.

                TTC instructors teach some courses in these areas, but the Specialized
                Technical Training group establishes and manages interagency agreements
                and commercial contracts to satisfy the specialized technical training needs
                for most courses.

                Technical Support Team

                The Technical Support Team manages the reactor simulation program and
                provides administrative support for the training programs. This team also
                manages administrative aspects of the TTC facilities including:

                        •   Building security,
                        •   Facility management,
                        •   Administrative funds control,
                        •   Property management and control, and
                        •   Administration of the local area network and all associated
                            information technology infrastructure.

                In addition, the Technical Support Team is charged with developing and
                implementing the agency learning management system3 and all related web
                pages.




2
 TTC instructors are NRC employees who teach full-time at TTC.
3
 The learning management system, currently under development, is a web-based application that will
provide database interfacing, records storage, student registration, student enrollment, course and session
cataloging, tracking of employee training records and qualification programs, and management of employee
competencies.
                                                    2
                                                         Audit of NRC’s Technical Training Center



FY 2005 TTC Statistics

       In FY 2005, TTC’s budget was approximately $7.6 million. This included
       $3.9 million for interagency agreements, commercial contracts, and various
       administrative expenses and $3.7 million in salaries and benefits for 29 full-
       time equivalents. During that year, TTC offered 70 courses and held 160
       course sessions with 2,220 students attending. The following chart provides
       details of the courses and student attendance. Approximately 15 percent of
       the students were non-NRC from Agreement States and other government
       and international agencies.

                                     Course Statistics
                                                    Number of         Number of
                      Course Category               Sessions          Students
             Reactor Technology
             Reactor Concepts and Technology                  18                392
             Advanced Technology                               6                100
             Technology Review                                13                 94
             Cross-Training                                    2                 16
             Simulator                                        16                 86
             Simulator Refresher                              13                 67

             Total Reactor Technology Training                68                755

             Specialized Technical Training
             Engineering Support Technology                    4                 50
             Fuel Cycle Technology                             1                 30
             Regulatory Skills                                39                583
             Radiation Protection Technology                  28                499
             Risk Assessment Technology                       20                303

             Total Specialized Training                       92               1465

             Total TTC Training                              160               2220
            Note: OIG created the categories in this table

Training Challenge

       In addition to its ongoing license renewal activities, recent developments
       have resulted in a marked increase in the workload associated with NRC’s
       traditional regulatory responsibilities. As NRC enters this new era of reactor
       regulation, the agency faces many challenges. The Energy Policy Act of
       2005 (Public Law 109-58) provides loan guarantees, production tax credits,
       and federal risk insurance for builders of new nuclear power plants. NRC
       estimates that it will receive 18 or more applications for new nuclear power
       plants in the coming years, with initial construction activities coming soon
       thereafter. Some applications may involve new reactor design technologies.

                                          3
                                                                         Audit of NRC’s Technical Training Center



          Coinciding with the increase in work related to new-plant licensing
          applications is the expected retirement of many senior staff. As a result,
          NRC increased its recruitment and hiring efforts for FY 2006 and the next
          several years. Appendix B shows the breakdown of the expected number of
          new hires and anticipated TTC students from FY 2006 through 2009. The
          anticipated training to be provided by TTC is reflected in the graph below.
          NRC’s ability to effectively review and license the new generation of
          commercial nuclear reactors will depend significantly on how well
          employees new to the process are trained and developed into effective
          reviewers and regulators at the staff and senior management level.



                                                TTC Student Projection

                                  4000
             Number of Students




                                  3500
                                                                                  Number of
                                  3000
                                                                                  Students
                                  2500

                                  2000
                                         2006    2007    2008    2009
                                                  Fiscal Year


          NOTE: The data shown in the graph above and in Appendix B were provided by a TTC
          official.

          TTC’s challenge is to effectively and efficiently train the new and existing
          employees. NRC must have highly qualified employees to perform the new
          reactor licensing work while ensuring maintenance of the safe performance
          of the existing nuclear power plants. Current plans call for training on new
          reactor technology to be contracted-out until NRC develops in-house
          expertise.

          To meet this challenge successfully, HR/TTC management should continue
          to develop and implement proactive strategies to ensure that TTC operates
          at optimal performance.


II.   PURPOSE

          The objective of this audit was to identify opportunities to improve the
          economy, efficiency, and effectiveness of the Technical Training Center’s
          operations.


                                                         4
                                                                     Audit of NRC’s Technical Training Center



III. FINDINGS

                 Collectively, TTC instructors are knowledgeable, experienced and
                 enthusiastic. While Office Directors and former TTC students were
                 generally pleased with the training provided by TTC, OIG identified
                 opportunities for improvement in the following areas:

                         •   Inventory practices,
                         •   Policies and procedures,
                         •   Maintenance of training materials,
                         •   Scheduling course revisions,
                         •   Instructor training and rotation, and
                         •   Course evaluations.

                 Addressing these areas will improve the efficiency and effectiveness of
                 TTC’s training program and better prepare NRC for the significant challenge
                 that lies ahead.

        A.    Inventory Practices

                 Management Directive (MD) 13.1, “Property Management,” requires that
                 physical inventories of all NRC equipment be conducted every two years.
                 Specifically regional offices, including TTC, are required to conduct self-
                 inventories of NRC equipment every two years and report the results to the
                 Office of Administration.

                 Control Activities, the third standard discussed in the Government
                 Accountability Office’s Standards for Internal Control in the Federal
                 Government4 (the GAO Standards) provides that key duties and
                 responsibilities should be divided or segregated among different people.
                 The methodology used by TTC in conducting an inventory did not include
                 independent physical verification of the property by someone other than the
                 property holder. A TTC representative explained that MD 13.1 does not
                 require that regional inventories be conducted using the segregation of
                 duties concept. Although compliant with MD 13.1, TTC’s training mission
                 could be negatively impacted if property cannot be located when required.

                 Noncompliance with GAO Standards for Internal Control

                 TTC staff did not perform an independent physical inventory of its property,
                 but rather relied on individual property holders to provide electronic
                 confirmation of the property's existence and location. To conduct the
                 inventory, the TTC property custodian sent property holders an e-mail listing
                 the inventory items assigned to them. The property holders would self-
                 identify the item’s existence and location via e-mail to the TTC property

4
    Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, dated November 1999.
                                                    5
                                                             Audit of NRC’s Technical Training Center



                custodian who subsequently prepared the inventory report. Finally, the
                Director of TTC Operations would send a memo reporting those results to
                the Office of Administration.

                TTC’s method of conducting the inventory pursuant to MD 13.1 did not meet
                the intent of the GAO Standards, which provide that key duties and
                responsibilities should be divided or segregated among different people. As
                applied to the TTC inventory practice, this means that the property holder
                should not be the same person verifying the existence and location of the
                property. Further, GAO’s executive guide, Best Practices in Achieving
                Consistent, Accurate Physical Counts of Inventory and Related Property,5
                provides that adequate segregation of duties for the inventory process
                includes using personnel who do not have overlapping responsibilities in
                custody or access to the inventory items.

                MD 13.1 provides that regional offices should conduct self-inventories, but
                does not require independent verification of property by someone other than
                the property holder. Effective implementation of segregation of duties
                reduces the risk of error or fraud so that no single person can adversely
                impact the accuracy and integrity of the physical inventory count.

                Recommendations

                OIG recommends that the Executive Director for Operations:

                1.    Revise Management Directive 13.1 to require that property inventories
                      should include independent verification of the property by someone
                      other than the property holder.

                2.    Issue interim guidance to accomplish the intent of Recommendation 1,
                      pending revision of Management Directive 13.1.




5
    GAO-02-447G, issued March 2002.
                                               6
                                                                   Audit of NRC’s Technical Training Center



        B.    Policies and Procedures

                 All of TTC’s policies and procedures are outdated and incomplete. They do
                 not comply with Office of Management and Budget Circular A-123,
                 Management’s Responsibility for Internal Control6 (OMB Circular A-123) or
                 the GAO Standards. This condition exists because HR management has
                 not made finalizing policies and procedures a priority. Without established
                 policies and procedures to clearly communicate management’s
                 expectations regarding authorities and responsibilities, staff may use
                 inconsistent and less than optimal methods in carrying out their duties.

                 TTC Policies and Procedures Need to be Revised and Updated

                 The policies and procedures in use at TTC address a variety of areas
                 including, but not limited to:

                         •   The general duties and responsibilities associated with TTC
                             positions;
                         •   How TTC meets the technical training needs of the NRC;
                         •   Course scheduling;
                         •   Course administration;
                         •   The TTC staff qualification program;
                         •   The training materials control program; and
                         •   Simulator training.

                 These policies and procedures are outdated and incomplete. Seven of nine
                 policies are in draft form; six have been in draft form for more than 10 years.
                 Of the two policies that are in final form, one is signed, but undated, though
                 an attachment is dated November 1995; the other policy is dated August
                 1993, but is unsigned.

                 According to both OMB Circular A-123 and the GAO Standards, policies,
                 procedures, and mechanisms should be in place to help ensure that agency
                 objectives are met. Further, information that is relevant, reliable, and timely
                 should be communicated to appropriate personnel at all levels within an
                 organization.

                 HR management, however, has not made finalizing TTC’s policies and
                 procedures a priority. When contacted by OIG, they indicated that they plan
                 to issue consolidated training policies which would also include the
                 Professional Development and Knowledge Management Branch at
                 Headquarters.




6
    The Office of Management and Budget issued the revised OMB Circular A-123 on December 21, 2004.
                                                   7
                                               Audit of NRC’s Technical Training Center



Without current policies and procedures new TTC staff could experience
difficulty understanding their responsibilities and authorities and take longer
to do what is expected of them. Additionally, existing TTC staff may be
unsure of management’s expectations for carrying out the day-to-day
operations of TTC.

Recommendation

OIG recommends that the Executive Director for Operations:

3.   Update and finalize the training policies and procedures.




                                8
                                                                        Audit of NRC’s Technical Training Center



      C.    Maintenance of Training Materials

                In OIG’s opinion, prudent business practices call for a systematic and well-
                communicated method of maintaining training materials to ensure currency,
                accuracy and completeness. At TTC, each course has a cognizant
                instructor7 assigned to maintain training materials. OIG found that TTC
                cognizant instructors employ various methods of maintaining training
                materials and do not systematically communicate their methods to other
                instructors or management. Further, the procedures for maintaining training
                materials are ad hoc and inconsistent. TTC management does not review
                or approve the various maintenance methods. Accordingly, turnover of
                materials from one instructor to another can be difficult to execute. There is
                a risk that out-of-date or erroneous training materials will be used in
                courses.

                Inconsistent Methods of Maintaining Training Materials

                Cognizant instructors are assigned to maintain the course materials for each
                TTC course. Cognizant instructors are responsible for (1) identifying
                needed changes to course materials (2) revising course materials, (3)
                tracking revisions to course materials, and (4) maintaining the controlled
                copy of course materials current. Cognizant instructors have chosen a
                variety of methods for collecting, recording, and tracking changes needed to
                their assigned course materials. The degree of rigor, formality and available
                documentation varies from cognizant instructor to cognizant instructor.
                There also is no systematic process for cognizant instructors to
                communicate to other instructors the methods used to maintain their course
                materials.

                OIG found that written policies do not specifically address methods for
                updating and making available training materials for all courses. In addition,
                TTC management has not reviewed or approved the various means used to
                maintain training materials. As a result, there is a risk that an instructor
                substituting for a cognizant instructor may use outdated training materials.
                The outdated training materials may not include recent operating
                experience.




7
  A cognizant instructor is the instructor who has responsibility for maintaining and updating course material
for a particular course.
                                                      9
                                              Audit of NRC’s Technical Training Center



Further, if a cognizant instructor takes a new position or leaves the agency,
that individual’s responsibilities would be given to another agency
employee. Since the maintenance processes are not systematic, the
turnover of course materials can be difficult to execute and can result in an
inefficient use of agency resources during the turnover process.

Recommendation

OIG recommends that the Executive Director for Operations:

4.   Develop and implement a written policy that provides specific
     expectations for:

      •   Revising course materials,
      •   Tracking revisions to course materials,
      •   Transferring cognizant instructor responsibilities, and
      •   Organizing and storing course materials.




                              10
                                                      Audit of NRC’s Technical Training Center



D.   Scheduling Course Revisions

       OIG found that TTC management does not obtain information needed to
       establish respective priorities and resource requirements relating to pending
       revisions of training materials. There is no specific written policy for:

              •   Prioritizing the aggregate of needed training material revisions,
              •   Identifying needed resources, and
              •   Scheduling revision work to meet course-scheduling needs.

       Consequently, resources may not be available to ensure that needed
       course revisions are made in a timely manner. Additionally, there is a risk
       that training materials may not be completely updated for courses. Finally,
       excessive costs such as instructor overtime or contractor costs may be
       incurred to meet course deadlines.

       Improvements Needed in Scheduling Course Revisions

       In addition to classroom related responsibilities, a cognizant instructor is
       responsible for revising course materials for the assigned course. TTC
       offers a number of courses, each of which may have several changes
       pending at a given time.

       Cognizant instructors manage the workload for revising courses in isolation
       from the broader needs of the TTC organization. OIG identified several
       deficiencies related to this area. Specifically, there are no processes for:

              •   Identifying and reporting pending changes for all courses to TTC
                  management;

              •   Prioritizing, allocating resources, and scheduling changes for the
                  aggregate of all pending course changes; and

              •   Tracking past changes to determine whether certain changes
                  have previously been addressed or found to be unnecessary.

       These deficiencies have occurred because HR and TTC management have
       not established written policies to specifically address prioritizing the
       aggregate of needed training material revisions, identifying needed
       resources and scheduling revision work to meet course-scheduling needs.
       Available resources are not being assigned to match the priorities of all
       needed course revisions. As a result, resources may not be available to
       ensure that needed course revisions are made in a timely manner.




                                      11
                                             Audit of NRC’s Technical Training Center



Recommendation

OIG recommends that the Executive Director for Operations:

5.   Develop and implement a written policy that provides specific
     expectations for the aggregate of pending changes for all course
     materials on an ongoing basis. The policy should address:

      •   Prioritizing individual changes,
      •   Identifying available resources, and
      •   Scheduling the changes.




                              12
                                                       Audit of NRC’s Technical Training Center



E.   Instructor Training and Rotation

        Opportunities exist to enhance training effectiveness at TTC. To optimize
        instructional methodology and keep courses technically fresh and up-to-
        date, instructor training and instructor rotation need improvement. In OIG’s
        opinion, sound business practices and the GAO Standards call for such
        improvements. As a result of the identified improvements noted above,
        students may not be getting the most current or best quality training
        available.

        Instructor Training

        Instructors need to continuously sharpen their skills and receive intellectual
        stimulation. The GAO Standards state that, “Only when the right personnel
        for the job are on board and are provided the right training, tools, structure,
        incentives, and responsibilities is operational success possible.” Instructor
        training includes technical training and instructional methodology training.

               Technical Training

        Most TTC instructors stated that, to stay current in their technologies, they
        rely on the NRC Daily Reports and discussions with their students. In OIG’s
        opinion, sound business practice dictates that instructors should be in a
        continuous learning mode – if they are not teaching or preparing/updating
        teaching materials, they could be learning by such means as:

               •   Participating as observers or members of an inspection team at a
                   nuclear power plant,
               •   Obtaining qualification as an inspector, and/or
               •   Completing relevant technical training courses.

        While some instructors are in the process of obtaining current field
        experience, many are not.

               Instructional Methodology Training

        TTC instructors have not had instructional methodology training for at least
        10 years. One instructor has not had this training for over 25 years. Many
        new instructors employed by TTC for fewer than 5 years received instructor
        training provided by their previous employers. One new instructor stated
        that typical industry practice requires instructor training every two years.
        The GAO Standards address management’s commitment to competence
        stating in part, “All personnel need to possess and maintain a level of
        competence that allows them to accomplish their assigned duties…”
        (Underlining added for emphasis.) For optimum effectiveness, instructors
        need periodic instruction in new and innovative methods of presenting
        course materials.

                                       13
                                                Audit of NRC’s Technical Training Center



HR management has not established a policy implementing a formal
mechanism to ensure that all TTC instructors keep technically current and
stay up-to-date with innovative teaching techniques. Consequently, TTC
students may not be getting the most current or best quality training
available.

Instructor Rotation

Instructor rotation encompasses rotation of instructors in and out of TTC as
well as rotation of cognizant instructor responsibilities as discussed below.

       Rotational Instructor Positions

The concept of creating rotational instructor positions in TTC would create
an environment in which new ideas, fresh perspectives, and recent hands-
on experience would be of great value and benefit to TTC, its students, and
the NRC. Currently, TTC instructors do not rotate in and out of TTC and
typically remain at TTC until retirement. When contacted by OIG, the
Director of the Office of Human Resources seemed receptive to the concept
of creating rotational instructor positions. He mentioned the possibility of
creating such positions on a pilot basis. One federal agency contacted by
OIG has a policy of rotating instructors on a five-year cycle.

       Rotation of Cognizant Instructor Responsibilities

Cognizant instructors are responsible for maintaining and updating course
curriculum. A TTC instructor assigned as a cognizant instructor for a
particular course generally retains the responsibility for that course for a
long time. In OIG’s opinion, sound business practices call for keeping
course materials fresh by obtaining new ideas and new views. Rotation of
cognizant instructor responsibilities would provide an additional way to
accomplish this objective, along with providing them intellectual stimulation
and a heightened level of interest and engagement in the courses that they
teach. A TTC official stated that rotation of cognizant instructor
responsibilities is not a routine practice, but it is an idea worth considering.

Recommendations

OIG recommends that the Executive Director for Operations:

6.   Develop and implement a policy requiring TTC instructors to maintain
     technical currency.

7.   Periodically provide instructional methodology training for all TTC
     instructors.




                                14
                                               Audit of NRC’s Technical Training Center



8.   Develop and implement a pilot program for rotational instructor
     positions at TTC.

9.   Periodically rotate cognizant instructor responsibilities.




                               15
                                                    Audit of NRC’s Technical Training Center



F.   Course Evaluations

       When used effectively, course evaluations are a valuable tool to assure
       management that the training program fulfills the needs of students, as well
       as to identify opportunities for improvement. While TTC instructors obtain
       immediate feedback from students at the end of each training session,
       course evaluations are not compiled in an official database. Such action
       would allow TTC management to analyze results and identify areas needing
       improvement. Furthermore, the evaluations used to evaluate courses
       taught by TTC instructors do not include specific questions related to
       instructor performance. In OIG’s opinion, both of these conditions are at
       variance with prudent business practices and other relevant criteria. As a
       result, negative trends could go unnoticed and uncorrected. Uncorrected
       problems in course content and/or instructor performance could adversely
       affect the quality of training received.

       Official Database

       While some managers and instructors at TTC maintain individual databases
       containing information related to course evaluations, TTC management has
       not established a central, official database to compile and analyze course
       evaluation results. The GAO Standards provide that “Internal control should
       generally be designed to assure that ongoing monitoring occurs in the
       course of normal operations.” Accordingly, in OIG’s opinion, prudent
       business practice requires that TTC management should compile course
       evaluation results in an official database. In addition, an appropriate
       methodology should be established to facilitate data analysis. Such action
       would provide TTC management and instructors the necessary tool to
       identify and correct problem areas. In light of the fact that TTC managers
       do not routinely observe instructors in the classroom, course evaluation
       analysis is critical to successful operations.

       Evaluating Instructor Performance

       Course evaluations used for contracted courses include questions
       specifically related to instructor performance; however, evaluations for
       courses taught by TTC instructors do not. The Performance Elements and
       Standards for Reactor Technology Training instructors provide that the
       instructor “Seeks feedback for both course and self-improvement from
       students, peers, management, and clients and acts on recommendations as
       appropriate.” By not including questions related to instructor performance
       on all course evaluations, TTC management has not fully implemented the
       elements and standards referred to above. As previously stated, TTC
       managers do not routinely observe instructors in the classroom. Therefore,
       it is important that managers, as well as instructors, obtain feedback from
       students on TTC instructor performance.


                                     16
                                             Audit of NRC’s Technical Training Center



In summary, without an official database to compile and analyze course
evaluations, negative trends could go unnoticed and uncorrected.
Additionally, failure to obtain student feedback on TTC instructor
performance could negatively affect training quality.

Recommendations

OIG recommends that the Executive Director for Operations:

10. Establish a more formal method to track and trend TTC course
    evaluations and periodically analyze trends for appropriate action.

11. Include questions specific to instructor performance on all course
    evaluations.




                              17
                                                         Audit of NRC’s Technical Training Center



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1.   Revise Management Directive 13.1 to require that property inventories
               should include independent verification of the property by someone
               other than the property holder.

          2.   Issue interim guidance to accomplish the intent of Recommendation 1,
               pending revision of Management Directive 13.1.

          3.   Update and finalize the training policies and procedures.

          4.   Develop and implement a written policy that provides specific
               expectations for:

                •   Revising course materials,
                •   Tracking revisions to course materials,
                •   Transferring cognizant instructor responsibilities, and
                •   Organizing and storing course materials.

          5.    Develop and implement a written policy that provides specific
               expectations for the aggregate of pending changes for all course
               materials on an ongoing basis. The policy should address:

                •   Prioritizing individual changes,
                •   Identifying available resources, and
                •   Scheduling the changes.

          6.   Develop and implement a policy requiring TTC instructors to maintain
               technical currency.

          7.   Periodically provide instructional methodology training for all TTC
               instructors.

          8.   Develop and implement a pilot program for rotational instructor
               positions at TTC.

          9.   Periodically rotate cognizant instructor responsibilities.

          10. Establish a more formal method to track and trend TTC course
              evaluations and periodically analyze trends for appropriate action.

          11. Include questions specific to instructor performance on all course
              evaluations.



                                         18
                                                                    Audit of NRC’s Technical Training Center



V.        SURVEY OF FORMER STUDENTS

                OIG surveyed 183 former TTC students8 via email to determine the degree
                of satisfaction with their learning experience. Using a scale of 1 to 10, with
                1 being the lowest and 10 the highest, sixty-eight former students
                responded, yielding a 37 percent response rate. Based on the response
                rate, OIG did not make any projections. Despite the level of response, the
                feedback received was generally favorable, as shown in the table below:


                                                                                    Sample           Sample
                                                                                     Mgmt              Mgmt
                                                                                    Measure          Measure
    No.            Question               Mean of       Median of   Mode of        Favorable        Percentage
                  Description             Rating         Rating     Ratings          Rating           ratings
                                                                                   > or = 7 *          <7*
    1     Training Applicability             7.8            8           8             79%              21%
    2     Training Used in Current Job       6.5            7           8             62%              38%
    3     Appropriate Technical Level        7.7            8           8             77%              23%
    4     Course Materials Current           8.0           8.5          9             87%              13%
    5     Instructors Knowledgeable          8.8            9           9             94%               6%
          and Current
    6     Instructor Clarity                 8.5           9            9             94%                6%
    7     Overall Course Rating              7.8           9            9             81%                19%

                Mean:           Arithmetic Average
                Median:         Half Values Above and Half of the Values Below
                Mode:           Most Common Result

                * In the above table, a rating of “7” was used as a favorable rating for
                  demonstration purposes only

                Using 7 as the minimum favorable rating, OIG depicted the results of the
                survey further as follows:

                The graph on the following page is for illustrative purposes only. The
                purpose of the graph is to show that valuable information can be learned by
                analyzing and presenting data from class evaluations.




8
 OIG identified the 183 students for survey by choosing all students who attended Reactor Technology
Training and/or Specialized Technical Training during a selected month.
                                                   19
                                                                                            Audit of NRC’s Technical Training Center




                                                                 Sample Management Measure



                             100


                             95


                             90


                             85
Favorable Rating (Percent)




                             80


                             75


                             70


                             65


                             60


                             55


                             50
                              Training
                                1                 Used
                                                    2 in       Appropriate
                                                                    3              4             5                  6                    7
                                                                                Course       Instructor        Instructor      Overall
                             Applicability        Current       Technical
                                                                               Materials     Knowledge          Clarity        Course
                                                   Job           Level
                                                                                                                               Rating




                                             In this illustration, the green section in the graph represents areas that met
                                             student expectations. The yellow section represents areas that could
                                             possibly be in need of review by TTC management, and the red section
                                             typically represents areas where management action is necessary.
                                             Question 2 in red above relates to the degree that the students’ training is
                                             used in their current job. In this instance, management action may not be
                                             necessary because several respondents may not yet have had the
                                             opportunity to put what they learned into practice.

                                             As stated previously, the purpose of this analysis is to show that valuable
                                             information can be learned by analyzing evaluation data. The division
                                             between green and yellow at 90 percent and yellow and red at 70 percent is
                                             subjective and was chosen here for demonstrative purposes. This graph
                                             demonstrates the value of this type of illustration in identifying areas for
                                             further management review or action.


                                                                             20
                                                           Audit of NRC’s Technical Training Center



             TTC management could readily perform this type of analysis on course
             evaluation data to identify opportunities for improvement.

VI.    BEST PRACTICES

             OIG auditors visited three federal government-training facilities to gain
             insights on practices other agencies use in the training arena. Identified
             best practices that could improve TTC’s training program relate to the use of
             pre-requisite on-line courses, maintenance of course curricula in one central
             location and the use of post-course evaluations.

      Pre-requisite On-line Courses

             Pre-requisite on-line courses provide students the same basic knowledge of
             the subject area being taught. This could be especially helpful to TTC
             instructors who have noted significant differences in the knowledge and
             experience levels of students. While some students are recent college
             graduates, others have many years of experience in the nuclear industry.
             The disparate technical knowledge and experience of such students poses
             a challenge to TTC instructors who strive to keep all students engaged in
             the learning process.

      Maintenance of Course Curricula

             The maintenance of course curricula in one central location represents
             another best practice. For example, hard copies of all current course
             manuals could be maintained in a central file room, or electronic versions of
             the manuals could be stored on a common computer drive. This ensures
             that someone other than the cognizant instructor could easily locate the
             curriculum. This is especially helpful when unforeseen circumstances
             prevent the cognizant instructor from communicating to others where or how
             the curriculum is located. Finding C of this report addresses this key area.

      Post-Course Evaluations

             Post-course evaluations sent to students and their supervisors
             six-months to one-year after course completion can be used to determine
             how well the training prepared students for their work. This practice could
             be beneficial in determining the need for any curriculum revisions. The
             post-course evaluation observed was short and concise, with one or two
             questions and space for comments.




                                           21
                                                   Audit of NRC’s Technical Training Center


                                                                              Appendix A
SCOPE AND METHODOLOGY

       To accomplish the audit objectives, OIG reviewed and analyzed pertinent
       regulations, authoritative guidance, policies and procedures, and prior
       relevant OIG, GAO, and State Department reports. In addition, OIG visited
       three other federal agencies and called a fourth agency to obtain training
       best practices information; surveyed former TTC students; reviewed TTC’s
       metrics; and tested TTC’s property management system, purchase card
       transactions, travel expenses, and contracts.

       OIG conducted interviews with selected Headquarters, TTC, and Regional
       officials to:

          1. Gain an understanding of TTC’s operations,
          2. Determine current issues, problems, known deficiencies, and
          3. Assess management controls.

       OIG conducted this audit in accordance with Generally Accepted
       Government Auditing Standards from September 2005 through July 2006.

       The major contributors to this report were Steven Zane, Team Leader;
       Kathleen Stetson, Audit Manager; Terri Cooper, Senior Auditor; and
       Michael Cash, Senior Technical Advisor.




                                    22
                                                                                                                 Audit of NRC’s Technical Training Center
                                                                                                                                             Appendix B



                                      ANTICIPATED TRAINING NEEDS (1)
                                                                                  Anticipated
                                                                                     TTC
                       Expected Number of New Hires              Total Based       Students          New            Total
Fiscal                      Agency             Requiring          on Repeat      Other Than        Reactor          TTC
Year        Attrition (2)   Growth Total TTC Training (3)      Attendance (4)    New Hires (5)    Training (6)    Students
2006             169          231    400                                                                           2588(7)
2007             177          323    500          400               2000              392            803            3195
2008             178          222    400          320               1600              416            875            2891
2009             199          201    400          320               1600              437            812            2849

         Notes:   (1)   A TTC representative supplied the numbers shown in the preceding table.
                  (2)   From 2001 through 2005, the attrition average rate was 5.38 percent.
                  (3)   Technical hires average around 80 percent of total hires.
                  (4)   On average, a technical new hire will attend four classes the first year of employment. This does not take into account the
                        number of training weeks associated with each class (one to three weeks per class).
                  (5)   Other than new hires include: refresher training, Agreement State personnel, other government and state agencies, ad hoc
                        NRC training, specialized courses, and international regulatory agencies. Annual increase based on percentage increase of
                        FTE ceiling.
                  (6)   New Reactor Training consists of new courses being developed for the Office of Nuclear Reactor Regulation and
                        construction training needed for Region II. This number could increase based on the numbers and types of new plant
                        applications requiring the development of additional courses.
                  7)    Number based on actual attendance figures




                                                                         23
                       Audit of NRC’s Technical Training Center




[Page intentionally left blank.]




       24
                                                                                                                    Audit of NRC’s Technical Training Center

                                                                                                                                                 Appendix D



                                                    Agency Response and OIG Analysis and Response




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                      OIG Analysis
Note                                                                                       to Resolve Comment                          and Response

 3       In FY 2005, TTC’s budget          We were unable to confirm          TTC Budget FY 2005                             NRC’s comment states in part,
         was approximately $7.6            the budgetary resources            Enacted       Current       Per IG Report      “See attached for the data
         million. This included $3.9       contained on page 3 under          $3.5M CST     $3.1M CST     $3.9 M IAG’s/CST   contained in OCFO’s official
         million for interagency           FY 2005 TTC Statistics. It         29 FTE        30 FTE         29 FTE            records.“ However the
         agreements, commercial            appears they may have been         $3.7M S&B     $3.8 S&B      $3.7 S&B           attachment was not provided.
         contracts, and various            drawn from the NRC's FY            Total $7.2M   Total $6.9M Total $7.5M          OIG contacted the OCFO
         administrative expenses           2005 Enacted budget. We                                                           official identified as the point of
         and $3.7 million in salaries      recommend that the report                                                         contact for the revised
         and benefits for 29 full-time     should be modified to reflect                                                     budgetary data. OCFO was
         equivalents.                      FY 2005 Current Budget                                                            unable to support the revised
                                           figures to more accurately                                                        data identified in the agency
                                           display this information. See                                                     comment, therefore, the report
                                           attached for the data                                                             remains unchanged.
                                           contained in OCFO’s official
                                           records.

         For the most part, current        The sentence is not correct, it    Suggest deleting the sentence                  Sentence deleted.
         employees will receive            is an oversimplification.
         training in the technology of
         the new reactors; new
         employees will learn the
         technology of the existing
         reactors.



        The page number in column 1 refers to the page number in the final report.
                                                                                      27
                                                                                                                          Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                           OIG Analysis
Note                                                                                        to Resolve Comment                               and Response

 5       III. FINDINGS

         Collectively, TTC
         instructors are
         knowledgeable,
         experienced and
         enthusiastic. While Office
         Directors and former TTC
         students were
         generally pleased with the
         training provided by TTC,
         OIG identified opportunities
         for improvement in the
         following areas:

         • Inventory practices,
         • Policies and procedures,
         • Maintenance of training         The report does not mention
         materials,                        any concerns with the              Change “Training effectiveness” to “Continuing       Changed finding title to
         • Scheduling course               effectiveness of the training      training for instructors”                            “Instructor Training and
         revisions,                        that TTC provides.                                                                      Rotation”
         • Training effectiveness,
         and
         • Course evaluations.




        The page number in column 1 refers to the page number in the final report.
                                                                                       28
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

 5       As a result, TTC’s training       The report does not give any       Although there have been no cases where TTC           The report says “could be
         mission could be negatively       examples of TTC property           property could not be located, TTC’s training         negatively impacted.” OIG
         impacted if property cannot       that was lost or misplaced to      mission could be negatively impacted if property      raised the potential risk to the
         be located when required.         substantiate this opinion. In      cannot be located when required.                      agency if property cannot be
                                           fact, in all cases, all TTC                                                              located.
                                           property was located for each
                                           annual property inventory and
                                           for the property inventory that
                                           was performed for OIG during
                                           their audit.




        The page number in column 1 refers to the page number in the final report.
                                                                                       29
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

 5       Noncompliance with GAO            TTC was in compliance with         TTC Practice for Conducting Property Inventories       No change.
         Standards for Internal            these documents. The
         Control                           description of the TTC             TTC staff did not perform an independent
         TTC staff did not perform         inventory process was not          verification of its property, but rather relied on
         an independent physical           completely and accurately          individual property holders to provide electronic
         inventory of its property, but    reflected in the report.           confirmation of the property's existence and
         rather relied on individual       Additionally, the sentence “       location. To conduct this inventory, the TTC
         property holders to provide       The property holders would         property custodian sent property holders an e-mail
         electronic confirmation of        reportedly inventory the           with an attachment listing the inventory items
         the property's existence          property assigned to them...”      assigned to them. The property holders would
         and location. To conduct          (emphasis added) seems to          physically inventory the property assigned to them
         inventory, the TTC property       question the integrity of the      and confirm the item’s existence and location via
         custodian sent property           TTC property holders. There        e-mail to the TTC property custodian. The property
         holders an e-mail listing the     is no evidence or discussion       custodian then resolved any discrepancies and
         inventory items assigned to       in the report to substantiate      prepared the inventory report. Finally, the Director
         them. The property holders        this opinion.                      of TTC Operations would review the results of the
         would reportedly inventory                                           inventory and send a memo reporting the inventory
         the property assigned to                                             results to the Office of Administration at
         them and confirm the item’s                                          Headquarters.
         existence and location via
         e-mail to the TTC property
         custodian who
         subsequently prepared the
         inventory report. Finally,
         the Director of TTC
         Operations would send a
         memo reporting those
         results to the Office of
         Administration.



        The page number in column 1 refers to the page number in the final report.
                                                                                       30
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

 6       MD 13.1 provides that             Regional offices may not be        MD 13.1 requires conducting physical inventories      MD 13.1 states the following:
         regional offices should           the only offices that perform      of all NRC equipment every 2 years, but does not      “At headquarters, DCPM staff
         conduct self-inventories,         property inventories using         require independent verification of property by       will conduct physical inventories
         but does not require              methodology similar to TTC.        someone other than the property holder. Effective     jointly with the responsible
         independent verification of       If independent verification is     implementation of segregation of duties reduces       property custodian.” This
         property by someone other         required, MD 13.1 should           the risk of error or fraud so that no single person   provides independent
         than the property holder.         reflect this requirement for all   can adversely impact the accuracy and integrity of    verification of property by
         Effective implementation of       offices.                           the physical inventory count.                         someone other than the
         segregation of duties                                                                                                      property holder.
         reduces the risk of error or
         fraud so that no single
         person can adversely
         impact the accuracy and
         integrity of the physical
         inventory count.

         Recommendation                                                       Recommendation
         OIG recommends that the                                              OIG recommends that the Executive Director for        Changed wording of
         Executive Director for                                               Operations:                                           recommendation to the
         Operations:                                                                                                                language suggested by HR.
                                                                              1. Revise Management Directive 13.1 to require        See report, pg. 6.
         1. Revise Management                                                 that property inventories should include
         Directive 13.1 to clarify that                                       independent verification of the property by
         self-inventories performed                                           someone other than the property holder.
         by the regions should
         include independent
         verification of the property
         by someone other than the
         property holder.



        The page number in column 1 refers to the page number in the final report.
                                                                                       31
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

 7       B. Policies and Procedures        This overstates the condition      B. Policies and Procedures
                                           of TTC policies and
         All of TTC’s policies and         procedures. Updating TTC           All of TTC’s policies and procedures have not been      At several points during the
         procedures are outdated           policies is an activity in HR’s    updated and draft revisions since 1995 have not         audit, OIG discussed the issue
         and incomplete. They do           2006 and 2007 Operating            been formally approved by management. This does         of outdated policies with both
         not comply with Office of         Plans. Updating these              not comply with Office of Management and Budget         HR and TTC management. In
         Management and Budget             policies has been prioritized      Circular A-123, Management’s Responsibility for         OIG’s opinion, it is simply not a
         Circular A-123,                   lower than conducting              Internal Control (OMB Circular A-123) or the GAO        good business practice to leave
         Management’s                      training, maintaining course       Standards. This condition exists because HR             policies and procedures in draft
         Responsibility for Internal       manuals and materials, and         management has determined that using the draft          form for more than ten years.
         Control (OMB Circular             staff hiring, training and         policies poses minimal risk to TTC operations.          The agency’s working group on
         A-123) or the GAO                 development. As                    Without updated and approved policies and               Management Directives
         Standards. This condition         recommended by the                 procedures to clearly communicate management’s          expressed a similar view on
         exists because HR                 referenced OMB Circular and        expectations regarding authorities and                  page five of its report.
         management has not made           GAO Standards, HR                  responsibilities, staff may use inconsistent and less
         finalizing policies and           management assessed the            than optimal methods in carrying out their duties.      No change to report language.
         procedures a priority.            risk of continuing to use the
         Without established policies      policies in their current
         and procedures to clearly         condition and determined that
         communicate                       there was little to no impact
         management’s                      on the operations of TTC.
         expectations regarding            TTC has established policies
         authorities and                   and procedures. They were
         responsibilities, staff may       completely revised and
         use inconsistent and less         approved in 1995. Since then
         than optimal methods in           the policies have been
         carrying out their duties.        updated individually to
                                           incorporate significant
                                           improvements or essential
                                           changes. An example is the


        The page number in column 1 refers to the page number in the final report.
                                                                                       32
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

                                           revision of Policy Document
                                           (PD) 7, TTC Staff
                                           Qualification”, to parallel the
                                           improvements made to the
                                           qualification program for
                                           inspectors (IMC 1245). PD 7
                                           was also reviewed and
                                           updated in 2003 in
                                           anticipation of many instructor
                                           retirements and new hires.
                                           The updated PDs have been
                                           approved for use, but have
                                           not been formally signed by
                                           the ADTD pending a planned
                                           revision to update and
                                           incorporate PDKM.

                                           Examples of the types of
                                           outdated information in the
                                           PDs include organizational
                                           titles and the use of hard
                                           copy course catalogs and
                                           course manuals vs the
                                           availability of these
                                           documents on the training
                                           website. To ensure that staff
                                           are aware of current
                                           management expectations,
                                           the staff training and
                                           qualification process


        The page number in column 1 refers to the page number in the final report.
                                                                                     33
                                                                                                                       Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                         OIG Analysis
Note                                                                                       to Resolve Comment                             and Response

                                           (documented in TTC Policy
                                           Document 7) requires staff
                                           review of the PDs and
                                           discussion with the
                                           supervisor. The Supervisor’s
                                           signature on the qualification
                                           card signifies that they have
                                           discussed the PDs with the
                                           qualifying individual.
                                           Instructors are involved with
                                           and review and comment on
                                           revisions to PDs before they
                                           are implemented.
                                           Management’s continuing
                                           involvement and oversight
                                           ensures that
                                           expectations regarding
                                           authorities and
                                           responsibilities are clearly
                                           communicated to ensure
                                           consistency and
                                           effectiveness of the staff in
                                           carrying out their duties.




         TTC Policies and                  This title overstates the          TTC Policies and Procedures Need to be Revised    Included suggested change to
 7       Procedures Are Outdated           condition of TTC policies and      and Updated                                       heading: TTC Policies and


        The page number in column 1 refers to the page number in the final report.
                                                                                      34
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

         and Incomplete                    procedures and implies that        The policies and procedures in use at TTC address      Procedures Need to be Revised
                                           they are unusable. The             a variety of areas including, but not limited to:      and Updated
         The policies and                  measure of the acceptability
         procedures in use at TTC          of a policy should not be          • The general duties and responsibilities associated   OIG reviewed the documents
         address a variety of areas        based on the date it was last      with TTC positions;                                    provided. Following the
         including, but not limited to:    revised, but rather on whether     • How TTC meets the technical training needs of        issuance of the discussion
                                           the contents of the policy are     the NRC;                                               draft, the Office of Human
         • The general duties and          still applicable to how            • Course scheduling;                                   Resources had the opportunity
         responsibilities associated       business is currently              • Course administration;                               to provide copies of the signed
         with TTC positions;               accomplished. The                  • The TTC staff qualification program;                 1995 final documents.
         • How TTC meets the               discussion does not                • The training materials control program; and
         technical training needs of       completely and accurately          • Simulator training.                                  During the original visit to TTC,
         the NRC;                          reflect the condition of the                                                              auditors were told that the
         • Course scheduling;              PDs or internal controls in                                                               policies and procedures were
         • Course administration;          place at TTC. It appears that      The policies were revised and approved in 1995.        being revised and updated.
         • The TTC staff qualification     this is partly due to OIG being    Two of the policies have been updated but are          Subsequently, OIG was told
         program;                          provided only copies of the        labeled draft and have not been formally approved      that revisions had been put on
         • The training materials          working drafts, and not the        (i.e., signed by management). The other policy         hold so that the policies and
         control program; and              signed 1995 final documents.       documents are labeled draft and are in various         procedures related to all
         • Simulator training.                                                stages of revision. TTC relies on ongoing              training could be addressed at
                                           The policies were written at a     management oversight and communication to              the same time.
         These policies and                reasonable level such that         ensure staff are current and consistent in their
         procedures are outdated           when combined with the             application of the policies. Opportunities to          The issue of “ongoing
         and incomplete. Seven of          experience level of the TTC        improve the documentation of TTC practices are         management oversight and
         nine policies are in draft        staff, the qualification           identified in subsequent sections of this report.      communication to ensure that
         form; six have been in draft      process, and on-the-job                                                                   staff are current and consistent
         form for more than 10             experiences, the instructor is                                                            in their application of the
         years. Of the two policies        knowledgeable about the                                                                   policies” was not presented to
         that are in final form, one is    practices and expectations of                                                             OIG during discussions with
         signed, but undated,              the position. HR expected                                                                 TTC management on the need


        The page number in column 1 refers to the page number in the final report.
                                                                                       35
                                                                                                                       Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                         OIG Analysis
Note                                                                                       to Resolve Comment                             and Response

         though an attachment is           that some areas would be                                                             to revise the policies and
         dated November 1995; the          identified for expansion                                                             procedures.
         other policy is dated August      during the planned review
         1993, but is unsigned.            and update. TTC has a long                                                           The agency did not provide any
                                           track record of conducting an                                                        factual information to refute the
                                           exceptional training program                                                         report finding.
                                           with the policies in place in
                                           this condition (working drafts.)                                                     OIG stands by the language in
                                                                                                                                the report.
                                           Some opportunities to
                                           improve the documentation of
                                           TTC practices are identified in
                                           subsequent sections of this
                                           report.


 7       According to both OMB             Policies, procedures, and          No change suggested. These are statements of      Agree.
         Circular A-123 and the            mechanisms are in place at         fact.
         GAO Standards, policies,          TTC to help ensure agency
         procedures, and                   objectives are met.
         mechanisms should be in           Information that is relevant,
         place to help ensure that         reliable, and timely is
         agency objectives are met.        communicated to appropriate
         Further, information that is      personnel at all levels within
         relevant, reliable, and           TTC. In addition to the policy
         timely should be                  documents and discussions
         communicated to                   during the qualification
         appropriate personnel at all      process noted above, TTC
         levels within an                  managers meet via VTC or
         organization.                     phone with HR management


        The page number in column 1 refers to the page number in the final report.
                                                                                      36
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

                                           at least twice per week.
                                           Current information that is
                                           relevant for TTC staff is
                                           passed along to them by their
                                           supervisor. TTC relies on
                                           ongoing management
                                           oversight and communication
                                           to ensure staff are current
                                           and consistent in their
                                           application of the policies.
                                           This has proven effective in
                                           maintaining a high quality
                                           training operation for at least
                                           the past 10 years.

 7       HR management, however,           HR management has made             When contacted by OIG, HR management                  The suggested report language
         has not made finalizing           finalizing policies and            indicated that they plan to issue updated and         dilutes the substance of the
         TTC’s policies and                procedures a priority.             consolidated training policies which would also       finding. OIG stands by the
         procedures a priority.            Updating TTC policies is an        include the Professional Development and              language in the report.
         When contacted by OIG,            activity in HR’s 2006              Knowledge Management Branch at
         they indicated that they          Operating Plan. Updating           Headquarters.
         plan to issue consolidated        these policies has been
         training policies which           prioritized lower than
         would also include the            conducting training,
         Professional Development          maintaining course manuals
         and Knowledge                     and materials, and staff
         Management Branch at              hiring, training and
         Headquarters.                     development. As stated by
                                           the referenced OMB Circular
                                           and GAO Standards, HR


        The page number in column 1 refers to the page number in the final report.
                                                                                       37
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

                                           management assessed the
                                           risk of continuing to use the
                                           policies in their current
                                           condition and determined that
                                           there was little to no impact
                                           on the operations of TTC.

                                           Since the staff of NRR is
                                           significantly increasing to
                                           prepare for licensing new
                                           reactors, the need for
                                           technical training in HQ is
                                           increasing. To more
                                           effectively and efficiently
                                           meet this need, HR is in the
                                           process of hiring technical
                                           instructors in HQ in PDKM.
                                           This will allow significant
                                           reduction in the travel costs
                                           for TTC instructors to come to
                                           HQ to teach or costs for HQ
                                           students to travel to TTC. It
                                           provides for face-to-face
                                           working relationship with
                                           NRR managers and subject
                                           matter experts. It will also
                                           allow HQ and TTC instructors
                                           to back each other up
                                           providing more flexibility for
                                           course scheduling and


        The page number in column 1 refers to the page number in the final report.
                                                                                     38
                                                                                                                    Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                      OIG Analysis
Note                                                                                       to Resolve Comment                          and Response

                                           conduct. Therefore, the PDs
                                           need to be revised to
                                           incorporate this change. This
                                           cannot occur until a number
                                           of HQ instructors are on-
                                           board, complete their
                                           qualification, and are familiar
                                           with NRC and HR programs
                                           and processes. This will also
                                           free up TTC instructors time
                                           as the HQ instructors begin to
                                           teach courses that currently
                                           TTC instructors travel to HQ
                                           to teach. Then we will have
                                           the resources and the
                                           knowledge base to effectively
                                           revise the PDs. For
                                           efficiency, at this same time,
                                           we plan to do a complete
                                           review and update of the
                                           PDs.

 8       Without current policies and      This implies that TTC policies     Suggest this paragraph be removed.             Keep paragraph. This
         procedures new TTC staff          and procedures are unusable                                                       paragraph contains the
         could experience difficulty       in their current form and that                                                    potential effect of using
         understanding their               TTC staff do not know how to                                                      outdated policies and
         responsibilities and              perform their duties. The                                                         procedures. The potential
         authorities and take longer       report does not include any                                                       consequences identified in the
         to do what is expected of         examples that support these                                                       OIG report remain valid
         them. Additionally, existing      statements. The                                                                   concerns which agency


        The page number in column 1 refers to the page number in the final report.
                                                                                      39
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         TTC staff may be unsure of        understanding of individual                                                     management should address
         management’s                      duties and management’s                                                         as discussed in the finding.
         expectations for carrying         expectations are addressed
         out the day-to-day                thoroughly during the
         operations of TTC.                qualification process (Policy
                                           7) and in Policy 4, “Course
                                           Administration.” Section F of
                                           Policy 7 describes the roles
                                           of the course instructors, the
                                           Course Director and the
                                           Course Cognizant Instructor
                                           in adequate detail. In
                                           addition, qualifying instructors
                                           perform each of these roles
                                           under the tutelage of
                                           experienced instructors and
                                           discuss each role with
                                           supervision prior to receiving
                                           a signature for those items in
                                           their qualification cards, per
                                           Policy 7.

                                           The likelihood that "new TTC
                                           staff could experience
                                           difficulty understanding their
                                           responsibilities and
                                           authorities and take longer to
                                           do what is expected of them
                                           or existing TTC staff being
                                           unsure of management’s


        The page number in column 1 refers to the page number in the final report.
                                                                                     40
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

                                           expectations for carrying out
                                           the day-to-day operations of
                                           TTC" is considered to be low
                                           considering the focus of on-
                                           site supervision to the needs
                                           of new employees and the
                                           experience and grade levels
                                           of TTC employees in general.
                                           Further the potential effect
                                           and impact of the risks on the
                                           agency are low and easily
                                           identified and mitigated.

 8       Recommendation                    Policy documents are formal        Recommendation
                                           and implemented at TTC.
         OIG recommends that the           There is no bases included in      OIG recommends that the Executive Director for
         Executive Director for            the report that supports           Operations:
         Operations:                       updating and revising the                                                                 Changed the recommendation
                                           training policies and              3. Update and finalize the training policies and       in the report to: “Update and
         3. Formalize and implement        procedures for TTC                 procedures.                                            finalize the training policies and
         policies and procedures           operations separately from                                                                procedures,” as suggested by
         related to TTC operations,        PDKM. PDKM and TTC staff                                                                  HR. See report, pg. 8.
         regardless of whether they        teach at the PDC and the
         are combined with the             TTC so the processes and
         Professional Development          procedures for operations of
         and Knowledge                     these facilities need to be
         Management Branch.                consistent, and both staffs
                                           must be involved in the
                                           revisions to ensure they are
                                           accurate and adequate for all


        The page number in column 1 refers to the page number in the final report.
                                                                                       41
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

                                           staff and both locations.
                                           Effectiveness and efficiency
                                           considerations require that
                                           the PDs be updated at the
                                           same time they are revised to
                                           include PDKM.

 9       C. Maintenance of Training        This section does not              C. Maintenance of Training Materials
         Materials                         completely and accurately                                                                  OIG stands by the language in
                                           reflect TTC method of              Prudent business practices call for a systematic        the report.
         In OIG’s opinion, prudent         maintaining training materials.    and well communicated method of maintaining
         business practices call for a     It implies that course             training materials to ensure currency, accuracy and
         systematic and well               materials are not maintained       completeness. At TTC, each course has a
         communicated method of            properly. There is no              cognizant instructor assigned to maintain training
         maintaining training              evidence or examples to            materials. TTC cognizant instructors employ
         materials to ensure               support this implication in the    various methods of collecting, recording and
         currency, accuracy and            report.                            tracking changes needed to their training materials.
         completeness. At TTC,                                                OIG found that TTC cognizant instructors do not
         each course has a                 We agree that there should         systematically communicate the status of their
         cognizant instructor              be a systematic and well           revisions to other instructors or management.
         assigned to maintain              communicated method of             Accordingly, turnover of materials from one
         training materials. OIG           maintaining training materials.    instructor to another can be difficult to execute.
         found that TTC cognizant          However, in a audit report, we     Further, written policies do not specifically address
         instructors employ various        would expect a standard cited      TTC practices for maintaining course materials or
         methods of maintaining            as opposed to “prudent             cognizant instructor duties and responsibilities with
         training materials and do         business practices”.               regard to maintaining course materials.
         not systematically                Business practices that are
         communicate their methods         prudent to one organization
         to other instructors or           may not be prudent for
         management. Further, the          another organization.


        The page number in column 1 refers to the page number in the final report.
                                                                                       42
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         procedures for maintaining        The TTC instructors are
         training materials are ad         training experts. As such,
         hoc and inconsistent. TTC         they are empowered to
         management does not               implement whatever method
         review or approve the             of collecting, recording, and
         various maintenance               tracking changes needed to
         methods. Accordingly,             their assigned training
         turnover of materials from        materials works best for
         one instructor to another         them.
         can be difficult to execute.
         There is a risk that              A systematic method for
         out-of-date or erroneous          maintaining course materials
         training materials will be        is currently implemented at
         used in courses.                  TTC and there is no
                                           indication that this method is
                                           deficient. Each course has a
                                           cognizant instructor assigned
                                           to maintain training materials.
                                           TTC cognizant instructors
                                           employ various methods of
                                           collecting, recording and
                                           tracking changes needed to
                                           their training materials.
                                           Controlled copies of training
                                           materials are maintained
                                           electronically in a designated
                                           folder on the TTC network
                                           drive. The documents are
                                           read only access, except for
                                           the assigned cognizant


        The page number in column 1 refers to the page number in the final report.
                                                                                     43
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

                                           instructor and the manager
                                           for the subject area. These
                                           are the files from which
                                           course manuals and
                                           materials are obtained for
                                           each scheduled course.
                                           Identification of needed
                                           changes is accomplished by
                                           review of student course
                                           evaluation forms, instructor
                                           feedback, management input
                                           and post course review
                                           meetings of assigned
                                           instructors. Routine changes
                                           such as fixing grammatical
                                           problems and minor technical
                                           revisions are accomplished
                                           by the assigned cognizant
                                           instructor. Major
                                           modifications in response to
                                           industry or regulatory
                                           changes are analyzed and
                                           discussed with the
                                           appropriate manager to
                                           determine resource
                                           requirements and priorities.
                                           This is an area we plan to
                                           expand in our update of the
                                           policy documents.



        The page number in column 1 refers to the page number in the final report.
                                                                                     44
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

                                           The risk that an instructor
                                           may use outdated training
                                           materials is very unlikely
                                           since all instructors use the
                                           same controlled copy from
                                           the network drive.


 9       Inconsistent Maintenance          We agree that the                  Lack of Documented Policy for Maintaining             The suggested change to the
         of Training Materials             documentation of TTC               Training Materials                                    heading does not conform with
                                           practices for maintaining                                                                the discussion.
         Cognizant instructors have        course materials needs             Cognizant instructors are assigned to maintain
         chosen a variety of               improvement. However, the          the course materials for each TTC course.             Changed heading to
         methods for (1) revising          report does not give any           Cognizant instructors are responsible for (1)         “Inconsistent Methods of
         course materials, (2)             examples that substantiate         identifying needed changes to course materials        Maintaining Training Materials.”
         tracking revisions to course      problems with the practices at     (2) revising course materials, (3) tracking
         materials, and                    TTC used to maintain course        revisions to course materials, and (4) maintaining    OIG accepted the suggested
         (3) organizing and storing        materials. There appear to         the controlled copy of course materials current.      language changes shown in
         course materials. The             be 2 issues here: (1)               Cognizant instructors have chosen a variety of       bold in the previous column, but
         degree of rigor, formality        turnover of needed course          methods for collecting, recording, and tracking       kept last sentence of OIG report
         and available                     revisions from one cognizant       changes needed to their assigned course               which reads as follows: “There
         documentation varies from         instructor to another, and (2)     materials. The degree of rigor, formality and         is no systematic process for
         cognizant instructor to           maintaining controlled copies      available documentation varies from cognizant         cognizant instructors to
         cognizant instructor.             of course materials.               instructor to cognizant instructor. There is no       communicate to other
                                                                              systematic process for cognizant                      instructors the methods used to
         At times, instructors teach       The first sentence is              instructors to communicate to other instructors the   maintain their course
         courses for which they are        incorrect. All instructors         status of revisions to their course materials.        materials.”
         not the cognizant instructor      teach in all courses for which
         and, therefore, are not           they are qualified, not just for
         directly responsible for          those for which they are


        The page number in column 1 refers to the page number in the final report.
                                                                                       45
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         maintaining the                   cognizant instructor. All staff
         training materials.               are expected to evaluate the
         Additionally, they may not        need for changes to course
         know how to locate the            materials during preparation
         most current training             and conduct of courses.
         materials. There also is no       They are expected to
         systematic process for            communicate needed
         cognizant                         changes to the cognizant
         instructors to communicate        instructor (and the cognizant
         to other instructors the          supervisor if a major revision
         methods used to maintain          is needed.)
         their course materials.           The location of the controlled
                                           copies of training materials is
                                           communicated to instructors
                                           as part of the instructor
                                           qualification process. Given
                                           that the course materials are
                                           used frequently, it is unlikely
                                           that an instructor will forget
                                           where the controlled copies
                                           are located. However this
                                           could easily be remedied by
                                           asking a peer or the
                                           supervisor.

                                           The TTC instructors are
                                           training experts. As such,
                                           they are empowered to
                                           implement whatever method
                                           of gathering, recording, and


        The page number in column 1 refers to the page number in the final report.
                                                                                     46
                                                                                                                             Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                              OIG Analysis
Note                                                                                        to Resolve Comment                                  and Response

                                           tracking changes needed to
                                           their assigned training
                                           materials works best for
                                           them. There is no need for
                                           cognizant instructors to do
                                           this the same way. TTC has
                                           had two unusual situations
                                           where the cognizant
                                           instructor was not available to
                                           transfer their duties to
                                           another instructor when
                                           required. That prompted TTC
                                           management to begin to
                                           assign a primary and backup
                                           cognizant instructor for each
                                           course to better facilitate
                                           transfer of cognizant
                                           instructor duties from one
                                           instructor to another.

 9       OIG found that written            A systematic method for            OIG found that written policies do not specifically     The suggested report language
         policies do not specifically      maintaining course materials       address TTC practices for maintaining course            dilutes the substance of the
         address methods for               is currently implemented at        materials or cognizant instructor duties and            finding. OIG stands by the
         updating and making               TTC. We agree that this            responsibilities with regard to maintaining course      language in the report.
         available training materials      should be documented in a          materials. TTC management relies on the
         for all courses. In addition,     PD.                                supervisor to verbally communicate management
 9       TTC management has not                                               expectations and practices for maintaining course
         reviewed or approved the          TTC management has                 materials during the instructor qualification process
         various means used to             reviewed and approved the          and when policies change. A documented policy
         maintain training materials.      methods for maintaining            regarding cognizant instructor duties and


        The page number in column 1 refers to the page number in the final report.
                                                                                       47
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

         As a result, there is a risk      training materials. These are      responsibilities for maintaining course materials
         that an instructor                communicated by the                would provide a higher level of confidence that
         substituting for a cognizant      supervisor to the staff during     course materials are being maintained
         instructor may use outdated       their qualification process.       appropriately and consistently.
         training materials. The           TTC management is aware
         outdated training materials       that cognizant instructors use
         may not include recent            various means to collect,
         operating                         record, and track changes
         experience.                       needed to their assigned
                                           training materials. This is
                                           appropriate given their grade
                                           level and expertise. The risk
                                           that an instructor may use
                                           outdated training materials is
                                           very unlikely since all
                                           instructors use the same
                                           controlled copy from the
                                           network drive.


 10      Further, if a cognizant           Current practice is to have a      Further, if a cognizant instructor takes a new         OIG stands by the language in
         instructor takes a new            primary and a backup               position or leaves the agency, that individual’s       the report.
         position or leaves the            cognizant instructor. This will    responsibilities would be given to another agency
         agency, that individual’s         address the turnover issue         employee. If there is no opportunity for turnover
         responsibilities would be         and will be added to the           between the two cognizant instructors, the turnover
         given to another agency           appropriate procedure.             of course materials can be difficult to execute and
         employee. Since the                                                  can result in an inefficient use of agency resources
         maintenance processes are                                            during the turnover process.
         not systematic, the turnover
         of course materials can be


        The page number in column 1 refers to the page number in the final report.
                                                                                       48
                                                                                                                             Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                              OIG Analysis
Note                                                                                        to Resolve Comment                                  and Response

         difficult to execute and can
         result in an inefficient use
         of agency resources during
         the turnover process.

 10      Recommendation                    The OIG survey results do          Recommendation                                          Included extra bullet as
                                           not support any process                                                                    suggested by the agency -
         OIG recommends that the           deficiencies in maintaining        OIG recommends that the Executive Director for          “Transferring cognizant
         Executive Director for            course materials. However,         Operations:                                             instructor responsibilities” - in
         Operations:                       documenting our processes                                                                  recommendation.
                                           in a PD would provide a            4. Document in a written policy the TTC practices
         4. Develop and implement          higher confidence level that       for:
         a written policy that             course materials are being         • Revising course materials,
         provides specific                 maintained appropriately and       • Tracking revisions to course materials,
         expectations for:                 consistently.                      • Transferring cognizant instructor responsibilities,
         • Revising course materials,                                           and
         • Tracking revisions to                                              • Organizing and storing controlled course
         course materials, and                                                materials.
         • Organizing and storing
         course materials.

 11      D. Scheduling Course              This section should be             Delete this section.                                    Keep section.
         Revisions                         removed. TTC management
                                           does obtain information                                                                    The agency has not provided
         OIG found that TTC                needed to establish                                                                        any evidence that TTC
         management does not               respective priorities and                                                                  management has internal
         obtain information needed         resource requirements                                                                      controls for prioritizing the
         to establish respective           relating to pending major                                                                  aggregate of needed revisions,
         priorities and resource           revisions of training materials                                                            identifying needed resources,
         requirements relating to          that are beyond the capability                                                             and scheduling revisions.


        The page number in column 1 refers to the page number in the final report.
                                                                                       49
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         pending revisions of              of the cognizant instructor to                                                  Given the lack of internal
         training materials.               accomplish alone in the time                                                    controls, the potential
                                           scheduled for course                                                            consequences identified in the
         There is no specific written      maintenance. Routine                                                            OIG report remain valid
         policy for:                       changes such as fixing                                                          concerns which agency
                                           grammatical problems and                                                        management should address
         • Prioritizing the aggregate      minor technical revisions are                                                   as discussed in the finding.
         of needed training material       accomplished by the
         revisions,                        assigned cognizant instructor
         • Identifying needed              in their assigned course
         resources, and                    development time. Major
         • Scheduling revision work        modifications in response to
         to meet course-scheduling         industry or regulatory
         needs.                            changes are analyzed and
                                           discussed with the
         Consequently, resources           appropriate manager to
         may not be available to           determine resource
         ensure that needed course         requirements and priorities.
         revisions are made in a           After the major revisions of
         timely manner.                    course materials to
         Additionally, there is a risk     incorporate the Shoreham
         that training materials may       and Trojan simulators, PD 9
         not be completely updated         was developed for any future
         for courses. Finally,             major revisions to course
         excessive costs such as           materials, however there
         instructor overtime or            have been none required
         contractor costs may be           over the past 10 years.
         incurred to meet course
         deadlines.                        There is no evidence in the
                                           report that training materials


        The page number in column 1 refers to the page number in the final report.
                                                                                     50
                                                                                                                     Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                      OIG Analysis
Note                                                                                        to Resolve Comment                          and Response

                                           have not been updated for
                                           courses or excessive costs
                                           such as instructor overtime or
                                           contractor costs have been
                                           incurred to meet course
                                           deadlines.

 11      Improvements Needed in            The majority of cognizant          Delete this section.                            Keep section.
         Scheduling Course                 instructors are responsible for
         Revisions                         only one course. They are                                                          The agency has not provided
                                           expected to prioritize and                                                         any evidence that TTC
         In addition to classroom          complete pending changes,                                                          management has internal
         related responsibilities, a       other than major revisions,                                                        controls for prioritizing the
         cognizant instructor is           within their assigned course                                                       aggregate of needed revisions,
         responsible for revising          development time. There are                                                        identifying needed resources,
         course materials for the          a small number of instructors                                                      and scheduling revisions.
         assigned course. TTC              qualified to make revisions to                                                     Given the lack of internal
         offers a number of courses,       courses in each curriculum                                                         controls, the potential
         each of which may have            area. Therefore managing                                                           consequences identified in the
         several changes pending at        the workload for revising                                                          OIG report remain valid
         a given time.                     courses does not need to                                                           concerns which agency
 11                                        consider the broader needs of                                                      management should address
         Cognizant instructors             the TTC organization.                                                              as discussed in the finding.
         manage the workload for           Completing the majority of
         revising courses in isolation     course revisions is not a
         from the broader needs of         complicated problem
         the TTC organization. OIG         requiring a documented
         identified several                process.
         deficiencies related to this
         area. Specifically, there         When a cognizant instructor


        The page number in column 1 refers to the page number in the final report.
                                                                                       51
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         are no processes for:             informs the supervisor that a
                                           revision is necessary for the
         • Identifying and reporting       subsequent course and is
         pending changes for all           beyond his capability to
         courses to TTC                    complete within the
         management;                       scheduled course
         • Prioritizing, allocating        development time, the
         resources, and scheduling         supervisor determines
         changes for the aggregate         priorities and assigns the
         of all pending course             necessary resources to
         changes; and                      complete necessary course
         • Tracking past changes to        revisions prior to the courses.
         determine whether certain         This is standard practice
         changes have previously           everywhere in the agency. If
         been addressed or found to        a staff person cannot
         be unnecessary.                   accomplish their assigned
                                           work, for whatever reason,
         These deficiencies have           they are expected to raise the
         occurred because HR and           issue to management. There
         TTC management have not           are no examples cited in the
         established written policies      report to substantiate any
         to specifically address           deficiencies in this area.
         prioritizing the                  Course revisions necessary
         aggregate of needed               to maintain the quality of TTC
         training material revisions,      courses have been
         identifying needed                accomplished prior to conduct
         resources and scheduling          of the course in all cases.
         revision work to meet             TTC has not conducted any
         course-scheduling needs.          course with an unacceptable
         Available resources are not       quality (i.e. that would


        The page number in column 1 refers to the page number in the final report.
                                                                                     52
                                                                                                                    Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                      OIG Analysis
Note                                                                                       to Resolve Comment                          and Response

         being assigned to match           negatively impact student
         the priorities of all needed      learning) of course materials.
         course revisions. As a            There are infrequently
         result, resources may not         extenuating circumstances
         be available to                   (i.e. course inserted in
         ensure that needed course         schedule to meet agency
         revisions are made in a           need, unavailability of
         timely manner.                    cognizant instructor) where
                                           course revisions have had to
                                           be made under a very tight
                                           schedule. TTC management
                                           properly assigned resources
                                           to address these situations.
                                           TTC is now assigning a
                                           primary and backup
                                           cognizant instructor for each
                                           course to reduce the impact
                                           of these types of situations.
                                           This will be incorporated in
                                           the actions for Section C.

 12      Recommendation                    This recommendation should         Delete recommendation.                         Recommendation retained.
                                           be deleted. Prioritizing and
         OIG recommends that the           assigning work is a routine
         Executive Director for            management function.
         Operations:
                                           Expectations and
         5. Develop and implement          responsibilities of cognizant
         a written policy that             instructors for maintaining
         provides specific                 course materials will be


        The page number in column 1 refers to the page number in the final report.
                                                                                      53
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

         expectations for the              included in an appropriate PD
         aggregate of pending              in response to Finding
         changes for all course            C/Recommendation 4.
         materials on an ongoing
         basis. The policy should
         address:
         • Prioritizing individual
         changes,
         • Identifying available
         resources, and
         • Scheduling the changes.

 13      E. Training Effectiveness         This section is titled “Training   E. Continuing Training for Instructors                 Changed finding title to
                                           Effectiveness”, however the                                                               “Instructor Training and
         Opportunities exist to            section deals with instructor      Opportunities exist to enhance the planning and        Rotation”
         enhance training                  effectiveness. Training            documentation of continuing training for instructors
         effectiveness at TTC. To          Effectiveness is broader than      at TTC. To ensure TTC courses continue to be
         optimize instructional            instructor attributes and          technically fresh and up-to-date, the planning and
         methodology and keep              generally includes anything        documentation of instructor continuing training
         courses technically fresh         that results in an acceptable      need improvement. In OIG’s opinion, sound
         and up-to-date, instructor        level of learning by the           business practices and other relevant criteria call
         training and instructor           students. There is no              for such improvements.
         rotation need improvement.        evidence or examples given
         In OIG’s opinion, sound           in the report to substantiate
         business practices and the        ineffective training or
         GAO Standards call for            instructors, or that students                                                             Other editorial changes made
         such improvements. As a           are not receiving current or                                                              to this section.
         result of HR management’s         high quality training. In fact,
         lack of attention to these        the OIG’s survey results
         areas, students may not be        refute these assertions.


        The page number in column 1 refers to the page number in the final report.
                                                                                       54
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

         getting the most current or
         best quality training
         available.

 13      Instructor Training                                                  No changes suggested. These are statements of
                                                                              fact.
         Instructors need to
         continuously sharpen their
         skills and receive
         intellectual stimulation. The
         GAO Standards state that,
         “Only when the right
         personnel for the job are on
         board and are provided the
         right training, tools,
         structure, incentives, and
         responsibilities is
         operational success
         possible.” Instructor training
         includes technical training
         and instructional
         methodology training.

 13      Technical Training                                                   Technical Training                                     At the exit conference, HR
                                                                                                                                     provided a table listing
         Most TTC instructors stated       This section does not              Most TTC instructors stated that, to stay current in   instructor developmental and
         that, to stay current in their    accurately reflect the training    their technologies, they rely on the NRC Daily         refresher activities. Most of the
         technologies, they rely on        provided for instructors at        Reports and on discussions with their students         information reflected in the
         the NRC Daily Reports and         TTC. The last sentence             and/or industry contacts. Instructors should be in a   table pertained to training
         discussions with their            states “While some                 continuous learning mode – if they are not teaching    classes taken and field


        The page number in column 1 refers to the page number in the final report.
                                                                                       55
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

         students. In OIG’s opinion,       instructors are in the process     or preparing/updating teaching materials, they         experience obtained in calendar
         sound business practice           of obtaining current field         could be learning by such means as:                    year 2006, after our site visit.
         dictates that instructors         experience, many are not. As
         should be in a continuous         shown in the attached table,       • Participating as observers or members of an
         learning mode - if they are       all instructors have obtained      inspection team at a nuclear power plant,
         not teaching or                   current field experience within    • Obtaining qualification as an inspector, and/or
         preparing/updating                the last two years. As             • Completing relevant technical training courses.
         teaching materials, they          suggested as a sound
         could be learning by such         business practice, TTC             As a matter of practice, TTC instructors routinely
         means as:                         instructors, when they are not     participate in these activities.
                                           teaching or
         • Participating as observers      preparing/updating teaching
         or members of an                  materials, are learning by:
         inspection team at a              • Participating as observers
         nuclear power plant,              or members of an inspection
         • Obtaining qualification as      team at a nuclear power
         an inspector, and/or              plant,
         • Completing relevant             • Obtaining qualification as an
         technical training courses.       inspector, and/or
                                           • Completing relevant
         While some instructors are        technical training courses
         in the process of obtaining       as well as other activities.
         current field experience,
         many are not.

 13      Instructional Methodology                                            Instructional Methodology Training
         Training
                                           This section does not              TTC instructors have had minimal instructional
         TTC instructors have not          accurately reflect the training    training methodology training. TTC instructors are
         had instructional.                provided for instructors at        provided formal training, as the need is identified


        The page number in column 1 refers to the page number in the final report.
                                                                                       56
                                                                                                                             Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                              OIG Analysis
Note                                                                                        to Resolve Comment                                  and Response

         methodology training for at       TTC. TTC instructors are           either individually or for TTC instructors as a group,
         least 10 years. One               provided formal training, as       on new instructional methods being evaluated or
         instructor has not had this       the need is identified either      implemented at TTC. Many new instructors
         training for over 25 years.       individually or for TTC            employed by TTC for fewer than 5 years received
         Many new instructors              instructors as a group, on         instructor training provided by their previous
         employed by TTC for fewer         new instructional methods          employers. One new instructor stated that typical        The training classes referred to
         than 5 years received             being evaluated or                 industry practice requires instructor training every 2   in the Comment section
         instructor training provided      implemented at TTC, or for         years. The GAO Standards address management’s            (Qwizdom, NEWS, and
         by their previous                 refresher training, for            commitment to competence stating in part, “All           PowerPoint) were taken during
         employers. One new                example training on Qwizdom        personnel need to possess and maintain a level of        September and October 2006 -
         instructor stated that typical    (an instructional tool for         competence that allows them to accomplish their          after the period covered by this
         industry practice requires        anonymously quizzing               assigned duties…” (Underlining added for                 audit.
         instructor training every two     students during the class to       emphasis.) For optimum effectiveness, instructors
         years. The GAO Standards          ascertain understanding of         need periodic instruction in new and innovative
         address management’s              course material), Toolbook         methods of presenting course materials.
         commitment to competence          (e-learning authoring tool),
         stating in part, “All             NEWS (tool for presenting          The TTC policy for continuing training for
         personnel need to possess         graphical simulations of plant     instructors does not contain any specific
         and maintain a level of           systems and parameters in          expectations for technical or instructional
         competence that allows            the classroom), and                methodology training and relies on the supervisor
         them to accomplish their          PowerPoint (replacing              and instructor to determine needed training on a
         assigned duties…”                 overheads). Since the TTC          case-by-case basis. Further, with the exception of
         (Underlining added for            instructors are technical and      some formal classroom training, continuing training
         emphasis.) For optimum            training experts, TTC also         activities are not documented in the official training
         effectiveness, instructors        relies on informal on-the-job      records.
         need periodic instruction in      training, coaching, and
         new and innovative                knowledge transfer by
         methods of presenting             supervisors and more
         course materials.                 experienced instructors.



        The page number in column 1 refers to the page number in the final report.
                                                                                       57
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

14       HR management has not             HR management has
         established a policy              established a policy for
         implementing a formal             continuing instructor training
         mechanism to ensure that          in Policy Document 7:
         all TTC instructors keep
         technically current and            “G. CONTINUING
         stay up-to-date with              TRAINING
         innovative teaching
         techniques. Consequently,           Continuing training for
         TTC students may not be             qualified individuals shall
         getting the most current or         be determined by the
         best quality training               employee and supervisor
         available.                          and may be included in the
                                             Individual Development
                                             Plan (IDP).”

                                                                                                                           During the audit field work, a
                                           To maintain technical and                                                       TTC manager stated that
                                           instructional currency, TTC                                                     instructors were being
                                           practice is for instructors to                                                  encouraged to participate on
                                           participate in inspection                                                       inspection teams and to obtain
                                           teams, obtain qualification as                                                  qualification as an inspector.
                                           an inspector, complete                                                          Such participation was
                                           relevant technical or                                                           characterized as optional.
                                           instructional training courses,
                                           attend conferences, make
                                           plant visits, etc. as
                                           determined by the instructor
                                           and supervisor as most
                                           appropriate for the individual


        The page number in column 1 refers to the page number in the final report.
                                                                                     58
                                                                                                                        Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                          OIG Analysis
Note                                                                                       to Resolve Comment                              and Response

                                           instructor considering
                                           available opportunities and
                                           instructors’ teaching and
                                           course development
                                           schedules. All instructors
                                           have participated in one or
                                           more of these activities to
                                           maintain their technical and
                                           instructional expertise.
                                           Consequently, innovative
                                           teaching techniques such as
                                           Qwizdom and NEWs have
                                           been implemented at TTC.

                                           The report further states
                                           “Consequently, TTC students
                                           may not be getting the most
                                           current or best quality training
                                           available.” There is no basis
                                           for this statement. In fact, the
                                           OIG’s own survey results and
                                           HR’s training metrics appear
                                           to contradict this statement.

 14      Instructor Rotation               The report states “The             We suggest this section and the accompanying       “Best Practices” discussions
                                           concept of creating rotation       recommendation be moved to the best practices      are informational and do not
         Instructor rotation               instructor positions in TTC        section of the report.                             include any recommendations.
         encompasses rotation of           would create an environment
         instructors in and out of         in which new ideas, fresh                                                             The placement of this section
         TTC as well as rotation of        perspectives, and recent                                                              was not changed.


        The page number in column 1 refers to the page number in the final report.
                                                                                      59
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         cognizant instructor              hands-on experience would
         responsibilities as               be of great value and benefit
         discussed below.                  to TTC, its students, and the
14                                         NRC.”
         Rotational Instructor
         Positions                         This statement implies that
                                           “an environment in which new
         The concept of creating           ideas, fresh perspectives, and
         rotational instructor             recent hands-on experience”
         positions in TTC would            doesn’t exist currently at TTC,
         create an environment in          and that it cannot exist
         which new ideas, fresh            without rotational instructor
         perspectives, and recent          positions. While HR agrees
         hands-on experience would         that creating rotational
         be of great value and             instructor positions is worthy
         benefit to TTC, its students,     of reconsideration (TTC has
         and the NRC. Currently,           considered this in the past
         TTC instructors do not            and decided against it for a
         rotate in and out of TTC          number of reasons) and
         and typically remain at TTC       many instructors do remain at
         until retirement. When            TTC until retirement (largely
         contacted by OIG, the             because they are
         Director of the Office of         professional instructors), the
         Human Resources seemed            almost complete turnover of
         receptive to the concept of       reactor technology instructors
         creating rotational instructor    (12 of 17) over the past 5
         positions. He mentioned           years, in combination with the
         the possibility of creating       continuing training activities
         such positions on a pilot         discussed above and listed in
         basis. One federal agency         the attached table, provides


        The page number in column 1 refers to the page number in the final report.
                                                                                     60
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         contacted by OIG has a            for an environment in which
         policy of rotating instructors    new ideas, fresh
         on a five-year cycle.             perspectives, and recent
                                           hands-on experience have
                                           benefitted the training
                                           programs. Other practices
                                           which facilitate new ideas,
                                           fresh perspectives, and
                                           recent hands-on experience
                                           include participation of
                                           subject matter experts from
                                           the field as instructors and
                                           course material developers
                                           for technical training courses,
                                           close cooperation among the
                                           offices/regions and TTC on
                                           training and non-training
                                           activities, and the future
                                           exchange of HQ and TTC
                                           technical instructors in
                                           technical training courses.
                                           Instructors maintain contact
                                           with other training
                                           professionals and obtain
                                           information on current and
                                           emerging training
                                           methodologies via the web.
                                           TTC managers attend training
                                           conferences to keep current
                                           on training methodologies.


        The page number in column 1 refers to the page number in the final report.
                                                                                     61
                                                                                                                             Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                              OIG Analysis
Note                                                                                        to Resolve Comment                                  and Response

 14      Rotation of Cognizant                                                Rotation of Cognizant Instructor Responsibilities
         Instructor Responsibilities
                                           The stated objective is            Cognizant instructors are responsible for
         Cognizant instructors are         “keeping course materials          maintaining and updating course curricula. A TTC
         responsible for maintaining       fresh by obtaining new ideas       instructor assigned as a cognizant instructor for a
         and updating course               and new views”. Since all          particular course generally retains the responsibility
         curriculum. A TTC                 instructors teach in all           for that course for a long time. In OIG’s opinion,
         instructor assigned as a          courses for which they are         sound business practices call for keeping course
         cognizant instructor for a        qualified, not just those for      materials fresh by obtaining new ideas and new
         particular course generally       which they are cognizant           views. Rotation of cognizant instructor                  IG incorporated the suggested
         retains the responsibility for    instructors, this objective is     responsibilities would provide an additional way to      report language: “would provide
         that course for a long time.      already addressed. All             accomplish this objective, along with providing          an additional way to accomplish
         In OIG’s opinion, sound           instructors are expected to        them intellectual stimulation and a heightened level     this objective” in the report.
         business practices call for       provide feedback regarding         of interest and engagement in the courses that they
         keeping course materials          the courses in which they          teach. A TTC official stated that rotation of
         fresh by obtaining new            participate. Rotation of           cognizant instructor responsibilities is not a routine
         ideas and new views.              cognizant instructor duties is     practice, but it is an idea worth considering.
         Rotation of cognizant             considered as part of the
         instructor responsibilities       normal assignment of work.
         would accomplish this
         objective, along with
         providing them intellectual
         stimulation and a
         heightened level of interest
         and engagement in the
         courses that they teach. A
         TTC official stated that
         rotation of cognizant
         instructor responsibilities is
         not a routine practice, but it


        The page number in column 1 refers to the page number in the final report.
                                                                                       62
                                                                                                                             Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                              OIG Analysis
Note                                                                                        to Resolve Comment                                  and Response

         is an idea worth
         considering.

14       Recommendations                                                      Recommendations

         OIG recommends that the                                              OIG recommends that the Executive Director for
         Executive Director for                                               Operations:
         Operations:

         6. Develop and implement          6. TTC has a policy for            5. Revise the policy for continuing training for TTC
         a policy requiring TTC            continuing training for            instructors to add specific detail about the purpose,
         instructors to maintain           instructors and in practice,       expectations, and documentation for technical
         technical currency.               TTC instructors have               training for instructors.
                                           completed many activities to
14       7. Periodically provide           get current field experience to    6. Revise the policy for continuing training for TTC
         instructional methodology         maintain technical currency.       instructors to add specific detail about the purpose,
         training for all TTC              The continuing training            expectations, and documentation for instructional
         instructors.                      section in PD 7 could be           methodology training for instructors.
                                           revised to add more specific
15       8. Develop and implement          detail about the purpose and
         a pilot program for               expectations for technical
         rotational instructor             training for instructors.
         positions at TTC.
                                           7. Instructors have been
         9. Require periodic rotation      provided instructional             7. Evaluate whether requiring periodic rotation of      Changed wording of OIG
         of cognizant instructor           methodology training as            cognizant instructor responsibilities would assist in   recommendation 9 to read:
         responsibilities.                 needed. For example,               keeping course materials fresh by obtaining new         “Periodically rotate cognizant
                                           training in the use of             ideas and new views.                                    instructor responsibilities.” See
                                           PowerPoint was conducted in                                                                report, pg. 15.
                                           October 2006. The continuing


        The page number in column 1 refers to the page number in the final report.
                                                                                       63
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

                                           training section in PD 7 could
                                           be revised to add more
                                           specific detail about the
                                           purpose and expectations for
                                           instructional methodology
                                           training for instructors.

                                           8. There are many other
                                           ways in place at TTC to bring
                                           fresh new ideas, etc. It has
                                           been more effective and
                                           efficient to send instructors
                                           out rather than to bring
                                           inspectors in.

                                           9. This needs to be
                                           considered on a case-by-
                                           case basis for each
                                           curriculum area. For some
                                           areas, there are only two or
                                           three instructors qualified in
                                           that area, so rotating
                                           cognizant instructor
                                           assignments among few
                                           people who all teach the
                                           courses may not be efficient
                                           or effective.




        The page number in column 1 refers to the page number in the final report.
                                                                                     64
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

 16      F. Course Evaluations                                                F. Course Evaluations                                 The suggested report language
                                           There are no examples of                                                                 dilutes the substance of the
         When used effectively,            negative consequences              When used effectively, course evaluations are a       finding. No evidence was
         course evaluations are a          attributed to the current TTC      valuable tool to assure management that the           presented to show that there
         valuable tool to assure           practices regarding course         training program fulfills the needs of students, as   are “more appropriate and cost-
         management that the               evaluation. There are other        well as to identify opportunities for improvement.    effective ways to accomplish
         training program fulfills the     more appropriate and cost-         While TTC obtains immediate feedback from             trending data.”
         needs of students, as well        effective ways to accomplish       students at the end of each training session and
         as to identify opportunities      the trending of the data. The      has a process in place to review the evaluations      No change.
         for improvement. While            projected impacts of not           and take actions in response to the feedback, the
         TTC instructors obtain            having an official database or     methods to track and trend evaluation results need
         immediate feedback from           questions related to instructor    improvement. Such action would allow TTC
         students at the end of each       performance are significantly      management to consider longer-term trends in
         training session, course          overstated and are refuted by      student comments. Furthermore, the evaluations
         evaluations are not               history, the results of the OIG    used to evaluate courses taught by TTC instructors
         compiled in an official           survey, and HR training            do not include specific questions related to
         database. Such action             metrics.                           instructor performance. TTC management relies
         would allow TTC                                                      on infrequent supervisory observation and open-
         management to analyze                                                ended questions on the course evaluations to
         results and identify areas                                           identify instructor performance problems. A more
         needing improvement.                                                 rigorous method for trending course evaluations
         Furthermore, the                                                     and obtaining feedback on instructor performance
         evaluations used to                                                  would increase the likelihood that negative trends
         evaluate courses taught by                                           would be noticed and corrected.
         TTC instructors do not
         include specific questions
         related to instructor
         performance. In OIG’s
         opinion, both of these
         conditions are at variance


        The page number in column 1 refers to the page number in the final report.
                                                                                       65
                                                                                                                           Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                            OIG Analysis
Note                                                                                        to Resolve Comment                                and Response

         with prudent business
         practices and other relevant
         criteria. As a result,
         negative trends could go
         unnoticed and uncorrected.
         Uncorrected problems in
         course content and/or
         instructor performance
         could adversely affect the
         quality of training received.

16       Official Database                                                    Official Database

         While some managers and           This does not fully and            HR calculates and monitors two performance             The referenced performance
         instructors at TTC maintain       accurately represent the           measures related to training effectiveness. These      measures currently in use set
         individual databases              conditions at the TTC. HR          are percentage of students that rate training          the bar as a minimum level and
         containing information            calculates and monitors two        satisfactory or better, and percentage of students     do not adequately address the
         related to course                 performance measures               that attain a passing exam score. The manager for      audit finding.
         evaluations, TTC                  related to training                each program maintains a spreadsheet of
         management has not                effectiveness. These are           evaluation and exam data to calculate the quarterly    No change.
         established a central,            percentage of students that        training metrics. HR and TTC management feel
         official database to compile      rate training satisfactory or      that this methodology facilitates data analysis and
         and analyze course                better, and percentage of          has been effective in monitoring the quality of
         evaluation results. The           students that attain a passing     training. In OIG’s opinion, TTC management
         GAO Standards provide             exam score. The manager            should implement a methodology, such as a
         that “Internal control should     for each program maintains a       central, official database, to more rigorously track
         generally be designed to          spreadsheet of evaluation          and trend course evaluation data. Such action
         assure that ongoing               and exam data to calculate         would provide TTC management and instructors an
         monitoring occurs in the          the quarterly training metrics.    additional tool to identify and correct problem
         course of normal                  This methodology facilitates       areas.


        The page number in column 1 refers to the page number in the final report.
                                                                                       66
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         operations.” Accordingly, in      data analysis and has been
         OIG’s opinion, prudent            effective in monitoring the
         business practice requires        quality of training. Therefore,
         that TTC management               the cited GAO Standard is
         should compile course             met. Course evaluation
         evaluation results in an          responsibilities are specified
         official database. In             in PD 4. Regarding feedback
         addition, an appropriate          on course content, material,
         methodology should be             relevancy, and presentation,
         established to facilitate data    ongoing monitoring of TTC
         analysis. Such action             course evaluations occurs in
         would provide TTC                 the course of normal
         management and                    operations for each course
         instructors the necessary         session that is conducted.
         tool to identify and correct      Comments from students
         problem areas. In light of        taught by TTC staff are
         the fact that TTC managers        reviewed by the course
         do not routinely observe          instructors, cognizant
         instructors in the                instructor, and the cognizant
         classroom, course                 TTC manager. Likewise,
         evaluation analysis is            comments for contracted
         critical to successful            courses are reviewed by the
         operations.                       course’s Project Officer and
                                           the cognizant TTC manager.
                                           Actions are then taken to
                                           address issues, as
                                           necessary, identified by the
                                           students, and to consider
                                           longer-term trends in student
                                           comments. Instructors and


        The page number in column 1 refers to the page number in the final report.
                                                                                     67
                                                                                                                         Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                          OIG Analysis
Note                                                                                        to Resolve Comment                              and Response

                                           managers have access to
                                           previous course evaluations,
                                           allowing them to look for
                                           repeat issues. Because of
                                           the experience level of TTC
                                           staff, management has found
                                           that routine observation of
                                           instructors in the classroom is
                                           not necessary. At least
                                           annual observation is
                                           performed to support the
                                           performance appraisal
                                           process.

                                           Tools other than databases,
                                           could be implemented to
                                           accomplish more rigorous
                                           trending. Use of a database
                                           is not necessary and may not
                                           be supportable from a cost-
                                           benefit basis.




 16      Instructor Performance            With respect to feedback           Move to Best Practices section or:                  Changed title of heading to
                                           involving instructor               Monitoring Instructor Performance                   “Evaluating Instructor
         Course evaluations used           performance, two separate                                                              Performance.”
         for contracted courses            cases exist. The fact that         Course evaluations used for contracted courses


        The page number in column 1 refers to the page number in the final report.
                                                                                       68
                                                                                                                            Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                            Suggested Report Language                             OIG Analysis
Note                                                                                        to Resolve Comment                                 and Response

         include questions                 TTC staff cannot monitor           include questions specifically related to instructor   “Best Practices” discussions
         specifically related to           every contracted course (due       performance; however, evaluations for                  are informational and do not
         instructor performance;           to geographical or time            courses taught by TTC instructors do not. The          include any recommendations.
         however, evaluations for          constraints) has led to the        Performance Elements and Standards for Reactor
         courses taught by TTC             practice of asking students to     Technology Training instructors provide that the       Incorporating the suggested
         instructors do not. The           provide feedback on                instructor “Seeks feedback for both course and         report language dilutes the
         Performance Elements and          contracted course instructors.     self-improvement from students, peers,                 substance of the finding. No
         Standards for Reactor             This has allowed for both          management, and clients and acts on                    change.
         Technology Training               feedback to contracted             recommendations as appropriate.”
         instructors provide that the      instructors on their individual                                                           Student feedback on instructor
         instructor “Seeks feedback        performance and responsible        TTC management and instructors have                    performance is useful
         for both course and               management of contracted           implemented this expectation through review of         information which should be
         self-improvement from             services. In contrast to the       student comments on instructor performance             routinely obtained, compiled,
         students, peers,                  case of contracted                 included in the open-ended questions on the            analyzed, and acted upon as
         management, and clients           instructional services, TTC        evaluation form, direct feedback from students,        warranted.
         and acts on                       managers have routine              managers, and client offices, and the annual
         recommendations as                access to presentations by         performance appraisal process.
         appropriate.” By not              TTC instructors. Accordingly,
         including questions related       TTC managers evaluate each         As previously stated, TTC managers do not
         to instructor performance         instructor at least once per       routinely observe instructors in the classroom.
 16      on all course evaluations,        year through attendance of         More frequent and specific feedback on instructor
         TTC management has not            selected training sessions;        performance would increase the likelihood that
         fully implemented the             sometimes more often               performance problems would be identified and
         elements and standards            depending on the experience        corrected.
         referred to above. As             of the instructor. In both
         previously stated, TTC            cases of assessing instructor
         managers do not routinely         performance, TTC
         observe instructors in the        management has the
         classroom. Therefore, it is       additional benefit of course
         important that managers,          evaluations completed by


        The page number in column 1 refers to the page number in the final report.
                                                                                       69
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         as well as instructors,           students to provide both
         obtain feedback from              direct (through qualitative
         students on TTC instructor        comments solicited on
         performance.                      feedback forms) and indirect
                                           (through overall assessments
         Without an official database      students make of the courses
         to compile and analyze            they attend) feedback on the
         course evaluations,               course and, by extension,
         negative trends could go          instructor effectiveness.
         unnoticed and uncorrected.        From a performance-based
         Additionally, failure to          perspective, it is reasonable
         obtain student feedback on        to infer instructor
         TTC instructor performance        effectiveness from overall
         could negatively affect           course effectiveness.
         training quality.                 Additionally in the future, RTT
                                           first line supervisors will
                                           spend 50 percent of their time
                                           on instruction activities,
                                           significantly increasing the
                                           direct observation of
                                           instructors in the classroom.
                                           Thus, TTC considers its
                                           ability to assess NRC
                                           instructor performance
                                           sufficient to the goal of
                                           providing high-quality
                                           instruction. The OIG survey
                                           results substantiate this.

                                           TTC management and


        The page number in column 1 refers to the page number in the final report.
                                                                                     70
                                                                                                                         Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                           OIG Analysis
Note                                                                                       to Resolve Comment                               and Response

                                           instructors have implemented
                                           the stated element and
                                           standard. This is
                                           accomplished by reviewing
                                           student evaluations (students
                                           frequently comment on
                                           instructor performance and
                                           the comments are
                                           overwhelmingly
                                           complimentary), direct
                                           feedback from students,
                                           managers, and customers,
                                           and the annual performance
                                           appraisals. There is no basis
                                           or evidence that these
                                           practices are ineffective or
                                           need improvement. We
                                           suggest that the discussion
                                           about questions regarding
                                           instructor performance be
                                           moved to the best practices
                                           section or we offer the
                                           suggested revisions.

 17      Recommendations                                                      Recommendations

         OIG recommends that the                                              OIG recommends that the Executive Director for
         Executive Director for                                               Operations:
         Operations:



        The page number in column 1 refers to the page number in the final report.
                                                                                      71
                                                                                                                         Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                           Suggested Report Language                           OIG Analysis
Note                                                                                       to Resolve Comment                               and Response

         10. Establish a single                                               9. Establish a more formal method to track and      Revised OIG recommendation
         official database to compile                                         trend TTC course evaluations and periodically       10 as suggested. See report,
         all TTC course evaluations                                           analyze trends for appropriate action.              pg. 17.
         and periodically analyze
         results for appropriate
         action.

         11. Include questions                                                10. Establish a method to obtain more frequent      The suggested report language
         specific to instructor                                               and specific feedback on TTC instructor             dilutes the substance of the
         performance on all course                                            performance.                                        recommendation. No change.
         evaluations.

 19      V. SURVEY OF FORMER               One of the objectives of this                                                          Based on the relatively low
         STUDENTS                          audit was to identify                                                                  response rate to the survey,
                                           opportunities to improve                                                               OIG did not make any
         OIG surveyed 183 former           effectiveness of TTC                                                                   projections. The data used in
         TTC students via email, to        operations; it is important to                                                         the table and the accompanying
         determine the degree of           note the based on OIG’s                                                                graph was for the purpose of
         satisfaction with their           survey information, most of                                                            illustrating that valuable
         learning experience.              the students found the TTC                                                             information can be obtained by
         Sixty-eight former students       program to be very favorable                                                           analyzing and presenting data
         responded, yielding a 37          (page 25). The favorable                                                               from course evaluations.
         percent response rate. The        results of the OIG survey are
         feedback was generally            discussed after the findings
         favorable as shown in the         and recommendations. The
         table below:                      favorable results of the                                                               In this audit, OIG did not state
                                           survey need to be integrated                                                           or conclude that the TTC
                                           throughout the report and                                                              program “missed the target.”
                                           referred to as appropriate.                                                            We did point out opportunities
                                           Although one does not                                                                  for improvement that, in OIG’s


        The page number in column 1 refers to the page number in the final report.
                                                                                      72
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

                                           dispute that we can do better,                                                  opinion, would raise TTC
                                           there is no empirical evidence                                                  operations to a higher level.
                                           that we have missed the
                                           target.

 20      The purpose of this               Compiling data may not be                                                       This section of the report
         analysis is to show that          the most cost efficient method                                                  demonstrates that useful
         valuable information can be       for determining improvements                                                    analytical tools are available to
         learned by analyzing              needed. Data needs to be                                                        identify operational areas in
         evaluation data. The              tracked and trended by                                                          need of improvement. OIG
         division between green and        course and by instructor to be                                                  used Excel spreadsheet
         yellow at 90 percent and          meaningful.                                                                     techniques in this analysis.
         yellow and red at 70
         percent is subjective and         Recommendation #10
         was chosen here for               specifies that a single official
         demonstrative purposes.           database to compile all TTC                                                     Recommendation 10 was
         This graph is not meant as        course evaluations be                                                           changed per agency comment.
         a measure of the                  developed. We recommend
         effectiveness or quality of       you refer to Yellow
         survey information provided       Announcement dated
 21      to OIG. This chart                September 7, 2006, for
         demonstrates the value of         information concerning the
         this type of graphic for          agency's policies and
         identifying areas for further     procedures for developing
         management review or              internal use software. (OCFO
         action. TTC management            comment)
         could readily perform this
         type of analysis on course
         evaluation data to identify
         opportunities for


        The page number in column 1 refers to the page number in the final report.
                                                                                     73
                                                                                                                  Audit of NRC’s Technical Training Center




Pg. #         OIG (Draft) Report                      Comment                         Suggested Report Language                      OIG Analysis
Note                                                                                     to Resolve Comment                          and Response

         improvement.




        The page number in column 1 refers to the page number in the final report.
                                                                                     74
